<html>
<title> - DISCRIMINATORY BARRIERS TO VOTING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                              
                    SCRIMINATORY BARRIERS TO VOTING

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           SEPTEMBER 5, 2019

                               ----------                              

                           Serial No. 116-43

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Available http://judiciary.house.gov or www.govinfo.gov

                             ------------

                 U.S. GOVERNMENT PUBLISHING OFFICE

38-079                   WASHINGTON : 2020





                     COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr.,
HENRY C. ``HANK'' JOHNSON, Jr.,        Wisconsin
  Georgia                            STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washingtqn          TOM McCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
  Vice-Chair                         KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas

        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                
                              ----------                              

  SUBCOMMITTEE ON THE CONSTITUTION, CIVIL RIGHTS, AND CIVIL LIBERTIES

                     STEVE COHEN, Tennessee, Chair
JAMIE RASKIN, Maryland               MIKE JOHNSON, Louisiana,
ERIC SWALWELL, California              Ranking Member
MARY GAY SCANLON, Pennsylvania       LOUIE GOHMERT, Texas
MADELEINE DEAN, Pennsylvania         JIM JORDAN, Ohio
SYLVIA R. GARCIA, Texas              GUY RESCHENTHALER, Pennsylvania
VERONICA ESCOBAR, Texas              BEN CLINE, Virginia
SHEILA JACKSON LEE, Texas            KELLY ARMSTRONG, North Dakota
                       James Park, Chief Counsel
                     Paul Taylor, Minority Counsel
                     
                     
                     
                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 5, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Steve Cohen, Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     1
The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     4
The Honorable Sheila Jackson Lee, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     7

                                WITNESS

Kareem Crayton, Executive Director, Southern Coalition for Social 
  Justice
  Oral Testimony.................................................     9
  Prepared Testimony.............................................    12
James Blumstein, University Professor of Constitutional Law and 
  Health Law & Policy, Vanderbilt University Law School
  Oral Testimony.................................................    16
  Prepared Testimony.............................................    18
Steven Mulroy, Professor of Law, The University of Memphis Cecil 
  C. Humphreys School of Law
  Oral Testimony.................................................    21
  Prepared Testimony.............................................    24
Tequila Johnson, Co-Founder and Vice President, The Equity 
  Alliance
  Oral Testimony.................................................    35
  Prepared Testimony.............................................    38
Jon Greenbaum, Chief Counsel and Senior Deputy Director, Lawyers' 
  Committee for Civil Rights under Law
  Oral Testimony.................................................    54
  Prepared Testimony.............................................    56
James Blumstein, University Professor of Constitutional Law and 
  Health Law & Policy, Vanderbilt University Law School
  Oral Testimony.................................................    88
Helen Butler, Executive Director, Georgia Coalition for the 
  Peoples' Agenda
  Oral Testimony.................................................    90
  Prepared Testimony.............................................    93
James Tucker, Pro Bono Voting Rights Counsel, Native American 
  Rights Fund
  Oral Testimony.................................................   103
  Prepared Testimony.............................................   105

                                APPENDIX

Responses to questions for the record submitted by Professor 
  Steven Mulroy..................................................   145
Item for the record submitted by James Blumstein, University 
  Professor of Constitutional Law and Health Law & Policy, 
  Vanderbilt University Law School...............................   151
Item for the record submitted by James Tucker, Pro Bono Voting 
  Rights Counsel, Native American Rights Fund....................   154




 
                   DISCRIMINATORY BARRIERS TO VOTING

                              ----------                              


                      THURSDAY, SEPTEMBER 5, 2019

                        House of Representatives

                       Committee on the Judiciary

  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Historic Moot Court Room, University of Memphis Cecil C. 
Humphreys School of Law, 1 N. Front Street, Memphis, Tennessee, 
Hon. Steve Cohen [chairman of the subcommittee] presiding.
    Present: Cohen, Nadler, and Jackson Lee.
    Staff present: James Park, Chief Counsel; Keenan Keller, 
Senior Counsel; Will Emmons, Professional Staff Member; and 
Paul Taylor, Minority Counsel.
    Mr. Cohen. As chairman of this committee on the 
Constitution, Civil Rights, and Civil Liberties, I call it to 
order.
    Without objection, the chair is authorized to declare 
recesses of the subcommittee at any time.
    I welcome everyone to today's hearing on discriminatory 
barriers to voting and I am extremely proud that we are here at 
the University of Memphis Law School, which is my alma mater 
where I went to law school, and not at this wonderful building 
but this law school. So I am proud, proud, proud to bring this 
to you.
    Congressman Sheila Jackson Lee will be joining us. She is 
here. And, of course, Congressman Nadler, the chairman, is with 
us as well.
    And also Representative Cooper has a representative here--
Jim Cooper from Nashville--and I appreciated his interest in 
coming and I appreciate him sending a representative. So thank 
you for attending on his behalf. Nashville is in the house.
    I will now recognize myself for an opening statement. 
Today's field hearing is part of a series of hearings that the 
House Judiciary Subcommittee on the Constitution, Civil Rights, 
and Civil Liberties will hold over the course of the 116th 
Congress to assess the current need for a reinvigoration of the 
preclearance requirement of Section 5 of the Voting Rights Act 
of 1965 and to consider other ways to strengthen that landmark 
civil rights statute.
    Some of you may be studying civil rights law and know about 
the historic passage of those bills in 1965. Unfortunately, in 
Shelby v. Holder, which had nothing to do with Shelby as in 
Shelby County, Tennessee, but Shelby County, Alabama, the 
Supreme Court of the United States overruled and ruled that the 
preclearance requirement didn't meet due process requirements 
and had to be--it was unconstitutional.
    So we have been without a Voting Rights Act for some time 
and there are problems with that that our witnesses will 
discuss.
    Our particular focus today is the evolution of racially 
discriminatory barriers to voting imposed by states and local 
governments and the central role that the federal government 
must play in tearing down those barriers to allow all people to 
vote, which is the fundamental basis of democracy.
    Especially appropriate we are holding these hearings today 
in Memphis. Memphis and the Deep South, of which it is the 
heart, in addition to Tennessee also includes the neighboring 
states of Mississippi, Alabama, where there are hurricane 
fears, Arkansas, Georgia, and North Carolina----
    [Laughter.]
    Mr. Cohen [continuing]. Among other states. Tennessee was a 
central focus of activism for the civil rights movement in the 
1960s--Diane Nash, John Lewis, Julian Bond was there locally. 
Russell Sugarmon, Vasco and Maxine Smith, many great legendary 
civil rights heroes.
    Tennessee was not considered a state that had to have 
preclearance because we didn't have the history that the other 
states had. But the other states close to us--Mississippi, 
Alabama, Arkansas, Georgia, North Carolina, and Texas--not so 
close but in the same--did have to have preclearance. They have 
several things in common, among the facts that they were all 
part of the Confederacy.
    Our esteemed colleague, Representative John Lewis, was 
beaten and bloodied as he marched in Selma, Alabama, to ensure 
that all Americans, regardless of race, had an equal right to 
vote.
    James Chaney, Andrew Goodman, Michael Schwerner were 
murdered in Mississippi in Neshoba County, Philadelphia, as 
they were working in the '60s to register African Americans to 
vote.
    And the Reverend Dr. Martin Luther King, Jr., the leader 
and face of the civil rights movement and the push for voting 
rights for African Americans came to Memphis in 1968 to march 
in solidarity with sanitation workers and became a martyr for 
the cause of civil rights.
    It is in the spirit of those who fought and died for voting 
rights that we turn our attention today to the still 
unfulfilled promise of equal opportunity for all Americans to 
participate in our electoral process.
    The Voting Rights Act of 1965 is considered the most 
effective civil rights statute ever enacted by the Congress. 
The act was enormously successful in expanding federal 
authority to protect the fundamental right to vote, and one of 
the central enforcements provisions was the preclearance 
provision.
    That provision required certain jurisdictions with a 
history of voting discrimination against racial groups and 
language minority groups which, up until 2013, would have been 
those predominantly, though not exclusively, in the Deep South 
or states that chose to leave the United States of America and 
form their own country, all because of race and slavery and 
wanting to maintain that economic opportunity that they had to 
have free labor and a superior race.
    But they had to obtain approval--the states that had 
preclearance--of any changes to their voting laws or procedures 
from the Department of Justice or the U.S. District Court for 
the District of Columbia before such changes could take effect.
    The purpose of that preclearance requirement was to ensure 
that the jurisdictions that were most likely to discriminate 
against minority voters would bear the burden of proving that 
any changes to the voting laws were not discriminatory before 
such changes took effect.
    It provided a target independent review to ensure that the 
new rules, laws, and jurisdictions for the history of 
discrimination were fair to all voters, and because they had a 
record of discrimination, they had a burden to show positively 
to the court that these were not going to discriminate.
    It rightly prevented potentially discriminatory voting 
practices from taking effect before they could harm minority 
voters and in this way preclearance proved to be a significant 
means of protection for the rights of minority voters.
    This is why Congress repeatedly reauthorized the 
preclearance provision on an overwhelmingly bipartisan basis, 
most recently in 2006 when the House passed the Voting Rights 
Act reauthorization by a vote of 390 to 33.
    Mind you, that was in 2006. It was 390 to 33, and the 
Senate 98 to nothing.
    Then the Supreme Court gutted Section 5, the most important 
portion of the Voting Rights Act in Shelby County v. Holder. It 
struck down the coverage formula to determine which 
jurisdictions would be subject in the preclearance requirement.
    As a result, the preclearance provision remains dormant 
unless and until Congress adopts a new coverage formula.
    While Section 2 of the Voting Rights Act, which prohibited 
discrimination in voting, remains in effect, it is by itself a 
much less effective and significantly more cumbersome way to 
enforce the Voting Rights Act.
    Most important, plaintiffs cannot invoke Section 2 until 
after alleged harm has taken place, thereby eroding the 
effectiveness of the Act. So you pass a law that might be, 
would have been, could have been declared void prior to its 
effectiveness through preclearance.
    But because you don't have preclearance it can only be 
declared effective or illegal after it has gone into practice 
and after it has discriminated against voters and stopped them 
from voting. So the harm is done. The horse is out of the barn.
    The onus is now on Congress to create a new coverage 
formula to reinvigorate the Act's most important enforcement 
mechanism--its preclearance requirement--and the need for 
strong federal enforcement remains as pressing as ever.
    While we are, thankfully, no longer in a universe where 
state and local officials use literacy tests and poll taxes to 
deny the vote to African Americans and other minority voters, 
racially discriminatory barriers have taken on new forms since 
the days of Jim Crow.
    Examples include discriminatory photo ID laws, polling 
place closures and relocations, restrictions on ex-felon 
voting, purges of voting rolls, all of which are designed to 
make it harder for African Americans and other racial and 
ethnic minorities to vote.
    Gun permit IDs, good. Vote. Student ID, bad. No vote. Here 
in Tennessee we have seen a new state law enacted that would 
impose draconian penalties on third party voter registration 
groups from minor errors in registration forms, imposing a 
chilling effect on such groups' efforts to register new voters.
    In addition, we have seen states engage in racial 
gerrymandering designed to dilute the strength of minority 
voters. In the absence of an effective pre-clearance regime, 
there is a high risk that these discriminatory measures will 
undermine the voting rights of racial and language minority 
voters.
    I want to mention that yesterday Jim Sensenbrenner, a 
member of Congress since 1978, announced he was not going to 
run for reelection.
    He is a Republican from Wisconsin. He sponsored the Voting 
Rights Act. He was one of the few Republicans who supported the 
Voting Rights Act reauthorization. He will be leaving Congress.
    At one time--I think it was in the previous Congress--there 
was a decision by one of the sponsors of the legislation that 
to be a co-sponsor you had to find a Republican to come on with 
you so it wouldn't like just a Democratic bill and they 
wouldn't have, like, 160 Democrats and four Republicans. So 
they wanted to have an equal number.
    Some people think this makes sense, that it looks good to 
have an equal number. I have never been a proponent of that. I 
think you get as many sponsors as you can and if the 
Republicans don't join, so be it.
    But you want people who support your legislation to have 
the opportunity to show their support by being a co-sponsor.
    Well, I found out that I had to have a Republican co-
sponsor so I looked all over on the Republican side and I have 
got lots of Republican friends that I made over the years.
    And it would have been easier for me to find that 
Indonesian airplane in the South Indian Ocean than it was to 
find a Republican to join me. There were just not many.
    So I thank our witnesses. I welcome Congressman Sheila 
Jackson Lee, who has joined us here and a great advocate for 
voting rights and all things good, and Chairman Nadler for 
being here today. I look forward to a fruitful discussion. I 
thank the University of Memphis Law School. The dean was here 
and she is like Penny Hardaway. She has got a great future and 
great things are going to happen. Thank you, Dean, for being 
here.
    Is this your first Penny Hardaway analogy?
    Voice. Absolutely.
    Mr. Cohen. You recruit good students.
    Now I want to recognize the chairman of the full Judiciary 
Committee, the honorable gentleman from New York, Mr. Jerry 
Nadler, for his opening statement and welcome him to Memphis.
    Mr. Nadler. Well, thank you very much.
    I want to begin by thanking the chairman of the 
subcommittee, Mr. Cohen, for welcoming us to Memphis and for 
holding this important hearing.
    It is fitting that this hearing is being held in a city 
that has been central to the struggle for achieving civil 
rights for all Americans. It is also home to the National Civil 
Rights Museum, which has turned the tragic spot where Dr. 
Martin Luther King, Jr., was assassinated into a beacon of hope 
that helps chronicle the advancements this country has made in 
fulfilling Dr. King's dream but also the many challenges that 
remain.
    One of the great unmet challenges is the current assault in 
legislatures and courts across the country on the right to 
vote. In recent years, we have seen a rise in the enactment of 
voter suppression tactics such as burdensome proof of 
citizenship laws, photo ID laws, significant scale backs to 
early voting periods, restrictions on absentee ballots, and 
laws that make it difficult to restore the voting rights of 
formerly incarcerated individuals.
    These kinds of voting restrictions have a disproportionate 
negative impact on minority voters. In the most recent 
elections in November 2018, voters across the country 
experienced various barriers to voting because of state and 
local laws and circumstances that made it hard or even 
impossible to vote.
    For example, as our witness, Helen Butler can attest, in 
Georgia 53,000 voter registrants, 70 percent of whom were 
African American, were placed in so-called pending status and 
at risk of not being counted by the secretary of state, who was 
also the Republican nominee for governor in that election 
because of minor misspellings on their registration forms.
    A federal court ultimately put a stop to this practice 
because of the, quote, ``differential treatment inflicted on a 
group of individuals who are predominantly minorities,'' closed 
quote, but enacted just four days before the election, and only 
after a prolonged period of confusion and who knows how many 
eligible voters didn't vote because they didn't catch up on the 
news the last few days and they believed that they wouldn't be 
allowed to vote.
    The recent rise in voter suppression measures can be 
directly attributed to the Supreme Court's disastrous 2013 
decision in Shelby County v. Holder, which effectively gutted a 
critical enforcement provision known as the preclearance 
requirement of the Voting Rights Act of 1965, which has been 
one of the most effective civil rights statutes ever enacted 
into law.
    Section 5 of the Voting Rights Act, or VRA, contains the 
preclearance requirement, which requires certain jurisdictions 
with a history of discrimination to submit any proposed changes 
to their voting laws or practices either to the Department of 
Justice or to the D.C. federal court for prior approval to 
ensure that those changes in laws or regulations or practices 
are not discriminatory.
    To understand--let me add that my own jurisdiction of 
Manhattan and Brooklyn where my congressional district is were 
subject--Manhattan, Brooklyn, and the Bronx were subject to 
Section 5 preclearance and we did not find it burdensome. But 
it was good.
    To understand why the preclearance requirement was so 
central to enforcing the VRA, it is worth remembering why it 
was enacted in the first place.
    Before the VRA, many states and localities passed voter 
suppression laws, secure in the knowledge that it could take 
many years before the laws could be successfully challenged in 
court if at all.
    As soon as one law was overturned as unconstitutional, 
another would be enacted, essentially setting up a 
discriminatory game of whack-a-mole.
    Section 5's preclearance provision broke this legal logjam 
and helped to stop these discriminatory practices. Indeed, the 
success of the VRA with its effective preclearance requirement 
was apparent almost immediately after the law went into effect.
    For instance, registration of African-American voters and 
the number of African Americans holding elected office both 
rose dramatically in the couple of years after enactment of the 
VRA.
    These successes could not have happened without vigorous 
enforcement of the VRA and particularly of its preclearance 
provision.
    The Shelby County decision, however, struck down as 
unconstitutional the VRA's coverage formula which determined 
which jurisdictions would be subject to the preclearance 
requirement, effectively suspending the operation of the 
preclearance requirement itself and in its absence the game of 
whack-a-mole has returned with a vengeance.
    Within 24 hours of the Shelby County decision, for example, 
Texas's attorney general, North Carolina's General Assembly 
announced that they would reinstitute draconian voter ID laws.
    Both states' laws were later held in federal courts to be 
intentionally racially discriminatory. But during the years 
between their enactment of the court's final decision, many 
elections were conducted while the discriminatory laws remained 
in place.
    At least 21 other states have also enacted newly 
restrictive statewide voter laws since the Shelby County 
decision.
    Restoring the vitality of the Voting Rights Act is of 
critical importance.
    In 2006 when I was the ranking member of this subcommittee, 
we undertook an exhaustive process to build a record--a 15,000-
page record--that demonstrate unequivocally the need to 
reauthorize the Voting Rights Act, provisions of which, like 
the preclearance requirement and the coverage formula that 
undergirded it, were expired.
    At the time we found that most Southern states as well as 
others were still facilitating ongoing discrimination. For 
instance, these states and their subdivisions engaged in 
racially selective practices such as relocating polling places 
for African-American voters, and in the case of localities 
annexing certain wards simply to satisfy white suburban voters 
who sought to circumvent the ability of African American to run 
for local elective offices in their cities.
    While it is true that those seeking to enforce--to enforce 
the Voting Rights Act can still pursue after-the-fact legal 
remedies under Section 2 even without preclearance, time and 
experience have proven that such an approach takes far longer, 
is far more expensive than having an effective preclearance 
regime, and once a vote has been denied it cannot be recast. 
The damage to our democracy is permanent and, as I said, the 
game of whack-a-mole has returned with a vengeance.
    That is why I hope that members on both sides of the aisle 
and in both houses of Congress will come together and pass 
legislation to restore the Voting Rights Act to its full 
vitality.
    Today's hearing will provide an important opportunity to 
renew our understanding of the importance of the Voting Rights 
Act and, in particular, of its preclearance provision and to 
support our efforts to craft a legislative solution.
    I appreciate the University of Memphis Law School for 
hosting us today and I look forward to hearing from our 
distinguished witnesses.
    And I thank the chairman. I yield back the balance of my 
time.
    Mr. Cohen. Thank you, Chairman Nadler.
    I have asked and she has consented--Congressman Sheila 
Jackson Lee--to make a brief statement. She wasn't told this 
beforehand but she is the successor in the interest and vigor 
and values and ability to articulate an issue to the great 
Barbara Jordan, who was a congressperson and one of her heroes 
and mine, too.
    So I recognize Congressman Sheila Jackson Lee and thank her 
for being here.
    Ms. Jackson Lee. What a privilege to be able to be here 
with my friend in Chairman Steve Cohen and, of course, the 
dynamic chairperson, chairman of the House Judiciary Committee 
evidenced by the work that we have been able to do.
    Chairman Cohen led a hearing in Houston, Texas, and we were 
forever grateful to have the ability to ensure that voices are 
heard around the nation on this vital question of voter 
empowerment.
    As both my chairmen have just said, voting has nothing to 
do with party affiliation or partisanship. I would almost 
consider it a birthright, and in this historic town where I am 
reminded of the message of, I am a man--I am an American--I am 
a woman--I am an Native American--I am an African American--I 
am an individual deserving of that right, I could not be more 
pleased to join Steve Cohen, who has been such a leader on 
these issues.
    Let me briefly say these points and as I do so let me thank 
the witnesses for your presence here today. Thank you, Dean. I 
am prone to law schools and so anytime you want to visit us in 
Houston we welcome you and we are delighted that you are 
training the current generation of constitutional specialists. 
Thank you so very much for your leadership.
    The centuries old institution of slavery established a 
racial caste system in the United States so pervasive that it 
has survived the oppressive economic and social institution 
that slavery was and it has continued.
    What we have seen over the years is an evolution of 
discriminatory voting practices. We have seen voter denial, 
voter dilution, and voter suppression and, tragically, all of 
that continues today.
    It is much to my dismay that Texas has become the prototype 
for denying the rights of citizens to vote, and I want to 
mention in the context of African Americans, Hispanics, the 
elderly, young people, impoverished persons who may move around 
and are held to the standard of what is your address, denying 
them the right to vote homeless persons--homeless persons as 
well, that our goal in America should be to empower people to 
vote.
    We have seen with the demise of preclearance, which is 
Section 5, that we are on our way back to square one for 
rehabilitating the Voting Rights Act.
    So the lesson that we learn here is that maintaining our 
rights requires vigilance. Both Steve and Jerry are correct 
that we worked together in 2006 for the reauthorization of the 
Voting Rights Act, and let me take note of Chairman 
Sensenbrenner, who was an active and vigorous participant.
    I remember the give and take and the 15,000 pages and the 
amendments that were accepted during that time frame. But I 
think the most evident of where we were as a country at that 
time is that there was actually a big celebration at the White 
House--a signing of the bill. And at the center point of the 
signing, I might say, was George W. Bush.
    And so we find ourselves now since 2013 on the back side of 
liberty and justice, the uncaged--but uncaged by Supreme 
Court's 2013 Shelby County case ruling which struck down 
Section 4 of the Voting Rights Act.
    Fourteen states, including my state of Texas, took extreme 
measures to enforce new voting restrictions before the 2016 
presidential election.
    As indicated in Harris County, where I live, we had a 
system where voters were getting purged from the rolls, 
effectively requiring people to keep active their registration.
    Right before a bond election thousands were taken off the 
rolls and asked, are you truly a citizen and, if so, run down 
to the county and prove it before you can vote.
    The Texas secretary of state recently claimed that his 
office had identified 95,000 possible noncitizens on the roles 
and gave the list to the attorney general for possible 
prosecution, leading to a claim by President Trump about 
widespread voter fraud and outrage from those who believe in 
justice.
    Interestingly enough, all of that was disproved. There are 
questions of criminal prosecution and the secretary of state 
had to step aside.
    At least 20,000 names turned out to be there by mistake, 
leading to chaos, confusion, concern that people's eligibility 
to vote was being questioned.
    The list was made through state records going back to 1996 
was shown which Texas residents weren't citizens when they got 
a driver's license.
    But this continues. Latinos made up a big portion of the 
90,000-person list and we believe that it was certainly based 
upon last names.
    So all of us who have had a distinct history in this nation 
have found ourselves in the eye of the storm when it comes to 
the question of voter denial--denying you the right to vote--
voter dilution--diluting the vote--and certainly voter 
suppression, all of it that continues.
    And so these hearings are, clearly, crucial and I am 
reminded, since Steve indicated, my mentor, the Honorable 
Barbara Jordan, who, when someone asked, what do you people 
want, she said, squarely and forthrightly, we want the promise 
of America.
    I believe all over America these hearings are forcing and 
enforcing the promise of America. I am delighted to be with 
you, Mr. Chairman, and thank you for the invitation.
    I look forward to the witnesses and I am very excited by 
those who are present in this room.
    I yield back.
    Mr. Cohen. Thank you so much. We appreciate your statement 
and your great volume of work on these issues.
    We welcome all of our witnesses here today and thank them 
for participating. We will have witnesses on two panels, and 
your written statements will be entered into the record in 
their entirety. And I will ask you to summarize your testimony 
in five minutes and I will give you a one-minute warning.
    In Congress, we have lights. So if you see the red light 
you know that you are finished and then you--green light you 
go, et cetera. But we don't have lights here.
    So we are going to get a signal from here. They get five 
minutes, and when they get to one minute they will let me know 
and I will go one. So that is the way we will do it here.
    Before proceeding with the testimony, I remind every 
witness appearing before us today that all of your written or 
oral statements made to the subcommittee connected with this 
hearing are subject to the penalty of perjury pursuant to 18 
USC 1001, which may result in the imposition of a find or 
imprisonment of up to five years, or both.
    Turning to the first witness panel, our first witness is 
Kareem Crayton. Mr. Crayton is the executive director of the 
Southern Coalition for Social Justice.
    His primary work explores the relationship between race and 
politics in representative institutions. His academic work 
addresses the varied effects of state-sanctioned racial 
exclusion and discrimination on campaigns, elections, and 
governance of the political system.
    He previously served on the faculties of Harvard, the 
University of Southern California, the University of Alabama, 
the University of North Carolina, and the Vanderbilt University 
School of Law.
    He received his JD and his Ph.D. in political science from 
Stanford, his BA in government magna cum laude from Harvard 
University.
    Mr. Crayton, you are welcome and recognized for five 
minutes.

  STATEMENTS OF KAREEM CRAYTON, EXECUTIVE DIRECTOR, SOUTHERN 
COALITION FOR JUSTICE; JAMES BLUMSTEIN, UNIVERSITY PROFESSOR OF 
    CONSTITUTIONAL LAW AND HEALTH LAW & POLICY, VANDERBILT 
  UNIVERSITY LAW SCHOOL; STEVEN MULROY, PROFESSOR OF LAW, THE 
UNIVERSITY OF MEMPHIS CECIL B. HUMPHREYS SCHOOL OF LAW; TEQUILA 
  JOHNSON, CO-FOUNDER AND VICE PRESIDENT, THE EQUITY ALLIANCE

                  STATEMENT OF KAREEM CRAYTON

    Mr. Crayton. Thank you, Mr. Chairman, and thanks to the 
committee for inviting me along with the panel to present on 
this important topic.
    As was stated earlier, I am the executive director of the 
Southern Coalition for Social Justice. It is a nonprofit 
located in Durham, North Carolina. Can you hear me okay?
    Mr. Cohen. You might want to come closer to the microphone.
    Mr. Crayton. Okay. How is this?
    Mr. Cohen. Closer.
    Mr. Crayton. Okay.
    Mr. Cohen. I feel like an eye doctor.
    Mr. Crayton. How is that?
    Mr. Cohen. Good.
    Mr. Crayton. Okay. We are--the Southern Coalition is 
located in Durham, North Carolina, and our work focuses on 
providing multidisciplinary talent in law, organizing 
communications and research to communities across the South who 
are facing significant systemic problems related to access to 
opportunity here in the South, and that includes voting rights.
    We partner with community organizations and we take as our 
focus, distinct from others, race equity as a guiding force, 
and we therefore spend a lot of time thinking about voting and 
how to make it more accessible to more people.
    It is, as has been said earlier, a keen source of concern 
from our perspective that there is currently a need to have 
Section 5 or a replacement available. My intention today, 
briefly, is to offer comments on the perspective from where we 
sit about what has been lost and what the world looks like in a 
world without Section 5 and where organizations like ours try 
to assure political opportunity to organizations.
    Due to that, I want to talk briefly about three particular 
examples, one of which you all have very nicely talked about so 
I don't have to say too much. But I want to talk about three 
particular issues: voter ID, about what we will discuss 
described as the criminalization of the ballot box, and then, 
finally, purges and removals.
    First, with respect to voter ID rules, you all have already 
very nicely described some of the perils associated with rules 
that don't just look at ID as a means to assure against fraud 
but instead a means of deciding who will and won't be part of 
the electorate, where a legislature like the one in North 
Carolina makes a decision that they will privilege gun licenses 
but not privilege public school-issued photo IDs.
    One makes some decisions about whether or not certain 
groups of people who tend to have one and not the other should 
be a part of the system. And our organization litigated in 
North Carolina what was called the ``monster'' voting bill out 
of the North Carolina General Assembly and the state was found 
to have intentionally discriminated with almost, as the 
bipartisan federal court sais, surgical precision.
    The part I want to emphasize is that even though we won 
that case, the state legislature responded by crafting a new 
voter ID provision that was going to be entrenched in the state 
constitution. That provision passed in 2018 with 55 percent of 
the vote and we are now--pardon?
    Mr. Cohen. Fifty-five percent of the vote of the 
legislature or--
    Mr. Crayton. Fifty-five percent of the vote in an election 
for the congressional--excuse me, for the constitutional 
provision as it was presented after a significantly, I think, 
contentious campaign.
    And in any case, we have since sought to sue to stop the 
implementing legislation that follows from that in state court 
and it is currently in the process.
    But note that during this period of time, we have a voter 
ID bill that is on the books and we will have elections that 
have to be pursued unless a state court gives us a preliminary 
injunction.
    The second topic I want to talk about briefly is an 
emergent issue but one that is not new to the United States and 
we describe it as the criminalization of the ballot box; that 
is, the use of public and private power to either penalize or 
harass people from doing nothing more than engaging in the 
exercise of the franchise.
    What I will note simply is that several prosecutors, 
including in Texas and in North Carolina, have attempted to use 
state power for felony convictions for people who, at worse, 
are making mistakes and engaging in the political process, 
sometimes encouraged by the state, and it is our intention to 
assure that these laws, particularly in North Carolina where 
there is no intent requirement in the criminal statute, is not 
applied in an unconstitutional way. We are closely monitoring 
that and we will attend to it in the next few months.
    Briefly, I will mention the third issue, which is purges 
and removals. This happened in a number of states. In my native 
state of Alabama, the state--secretary of state has encouraged 
this as another means of assuring against fraud.
    And as it plays out, this tends to work against people who 
don't vote every election. If you vote in the national election 
in 2016 but don't vote in 2018 that can be counted against you, 
particularly if there are intervening elections to follow from 
it.
    The challenge here is, one, that raises real speech 
concerns for people who choose not to participate in an 
election for any given time. But, two--and this is the deeper 
question that I will stop with--it discourages confidence that 
the political system is open to all people.
    The real challenge in all of these efforts where people 
actually go through the registration process in one instance 
and then are told by the state, you have to go back to square 
one because you didn't participate in the way that we think you 
need to participate is that it sends a negative message to 
people that they are not entitled just because of citizenship, 
as Representative Jackson Lee said, to participate in elections 
because it is their right.
    And the real challenge, I think--and I hope that this 
committee will consider it as you are thinking through 
provisions that will follow--how do we use state power to 
assure that people who are citizens and who are intending to do 
nothing more than have their voice heard, how do we encourage 
rather than discourage their participation.
    It is my hope and, certainly, from our perspective at the 
Southern Coalition that we will be partners in that effort.
    And we thank you for the opportunity to speak.
    [The statement of Mr. Crayton follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, sir, and it is my error in not 
keeping up with the time as well. I am going to be a better 
time keeper.
    James Blumstein is a university professor of con law and 
health law and policy, professor of management--Owen Graduate 
School of Management and director of the Vanderbilt Health 
Policy Center.
    I knew of Mr. Blumstein and of his work when I was a state 
senator. He was respected with his testimony and opinions among 
the members of the General Assembly and teaches at the school I 
went to undergraduate. So I appreciate your being here.
    Among his many accomplishments he was former Tennessee 
Governor Phil Bredesen's counsel on TennCare reform. He 
participated in a number of Supreme Court cases and arguing 
Dunn v. Blumstein, a successful '72 challenge to Tennessee's 
durational residency requirement for voter registration. He has 
a BA in economics from Yale, an MA in economics from Yale, and 
an LLB from Yale. He never could get out of Yale. [Laughter.]
    Professor Blumstein, fortunately, you got to Vanderbilt, 
the Harvard of the South.
    You are recognized for five minutes.

                  STATEMENT OF JAMES BLUMSTEIN

    Mr. Blumstein. Thank you, Mr. Chairman, and I remember well 
your work when you were in the state legislature on getting 
funding for higher education and your good work there.
    My testimony today will focus on a case I brought. You 
mentioned Dunn v. Blumstein and I will talk about that, and 
then some----
    Mr. Cohen. You need to be closer to the mic.
    Mr. Blumstein [continuing]. Some lessons that I have 
learned from that and lessons that I think are significant. But 
there are a few war stories here and a few examples I want to 
talk about.
    First, what the case was about. When I am--when I moved to 
Tennessee in 1970 you had to live in the state a year in order 
to register to vote and you had to live in the county of your 
vote for 90 days.
    I brought suit to challenge that based upon both violation 
or a penalty on the right to travel and a restriction on the 
right to vote, and that case was brought.
    The Census data that we had from that era showed that about 
3.3 percent of residents move from one state to another every 
year and about 3.3 percent of persons move from county to 
county every year.
    So it overstates it a little bit but about 6\1/2\ percent 
of people were disenfranchised from these durational residency 
requirements, and the law was ultimately struck down by the 
District Court and then by the U.S. Supreme Court in an opinion 
by Justice Marshall.
    I think that that case probably has enfranchised more 
people than any single case in our constitutional history 
about, as I said, somewhere a little bit south of 6.5 percent.
    And then there are some stories about that and some 
lessons. As we were litigating this, the state said that it 
wanted to promote voter knowledge and to protect the purity of 
the ballot--guard against voter fraud.
    There was really no question at that point that voter 
knowledge was not really well served by a length of residency 
and we addressed that in the case directly.
    But just parenthetically and just to lighten this up a 
little, I did offer to take a test of my voter knowledge of the 
issues. At that time, Senator Gore was running for reelection 
and I thought I knew a good bit about his--the issues in his 
campaign and the opponent's. I think Senator Brock was running 
against him.
    And then we had the voter fraud. Well, this is important--
the voter fraud issue. It showed that the lengthy residency 
requirements were put in to stop a real problem, the problem of 
colonization, where people would be brought in from outside the 
states like Kentucky or outside the district, and the voter 
residency requirements or durational requirements were put in 
so that people would know their neighbors--who was actually 
brought in on the day of election to colonize and who was a 
real resident.
    But since those things had been enacted, Tennessee had 
adopted a system of voter registration to deal with voter 
fraud. And so the court was able to see that the voter 
registration system eliminated the need for these lengthy 
residency requirements and so that is the lesson that I want to 
talk about is that having a--taking seriously a problem rather 
than denying the existence of a problem allows a conversation 
to develop about how one can overcome the adverse effects of 
dealing with the problem such as the durational residency 
requirements and how the voter registration system allowed the 
courts to see that alternative methods of dealing with voter 
fraud were available that were much less debilitating on the 
right to vote.
    So I take from that important lesson that if one recognizes 
and seeks in good faith to try to solve a problem in the least 
destructive way you can that that is likely to generate strong 
support across the aisle.
    So I will--I see that my time has almost expired. I will be 
glad to take questions and respond to questions at that point. 
But I think that is an important takeaway of that experience.
    Thank you very much.
    [The statement of Mr. Blumstein follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Professor.
    For the students, I want to relate a little history to you. 
Dunn v. Blumstein was a governor named Winfield Dunn, who was 
from Memphis who was--from '71 to '75 he was governor of 
Tennessee--a Republican governor.
    And when he says Gore, there were two Gores. Al Gore, Jr., 
had a father, Al Gore, Sr., who served in the Senate for I 
think 18 years and was defeated in '70. And I would also 
mention----
    Mr. Blumstein. Right. And the election was about Al Gore, 
Sr. Al Gore, Jr., was one of my students later on.
    Mr. Cohen. You taught him well.
    Mr. Blumstein. Thank you.
    Mr. Cohen. The process in Congress is when you are the 
majority you have three witnesses and when you are in the 
minority you have one witness.
    Mr. Blumstein is here as the witness of the Republicans and 
he will appear on the second panel as well because they only 
supplied us with one witness. We will have three other 
Democrats to come later.
    Now I would like to recognize a homeboy, Steven Mulroy, a 
professor of law at the University of Memphis Cecil C. Humphrey 
School of Law, since 2000, teaching in the area of con law, 
criminal law, criminal procedure, civil rights, and election 
law. Former civil rights lawyer for the U.S. Department of 
Justice and former federal prosecutor, he tried a number of 
voting rights cases which went to the Supreme Court.
    In addition to his academic and litigation experience, 
Professor Mulroy has served as an elected Shelby County 
commissioner 2006 to 2014, drafting, among other things, the 
first legislation on any level to provide discrimination 
protection for the LGBT community.
    He served as a law clerk to the Honorable Roger Vincent, 
the U.S. District judge of the Northern District of Florida. He 
got his JD from the William and Mary Law School, top 5 percent 
of his class, an editor of the Law Review.
    Received his BA in linguistics from Cornell with 
distinction and he was a major proponent of IRV, which was a 
voting process that the city council passed and all, and that 
was important but it was named IRV, which reminds me of Irvin 
Salky, who needs to be remembered at all times.
    Professor Mulroy, you are recognized for five minutes.

                   STATEMENT OF STEVEN MULROY

    Mr. Mulroy. Thank you, Mr. Chairman, and members of the 
committee. It is an honor to be able to speak to you today on 
such an important issue.
    I started my legal career in the voting section enforcing 
Section 2 and Section 5 of the Voting Rights Act. I have 
published a number of scholarly articles on the Act, just 
recently published a book on election reform, and as has been 
pointed out, while I was an elected county commissioner I 
worked not only on reform of two methods of election but also 
personally was involved in a redistricting process.
    While the Voting Rights Act undeniably succeeded early on 
in allowing minority voters access to the ballot casting and 
registration and then later on succeeded in addressing minority 
vote dilution, it by no means ended all minority vote dilution.
    And the same is true of the recent wave of vote suppression 
cases we have heard about today, the so-called third generation 
of Voting Rights Act enforcement, which picked up considerably 
after the Shelby County v. Holder decision.
    After that decision, we now lack the most effective tool in 
fighting voting discrimination, Section 5 preclearance. The 
court left open the option of drafting a new coverage formula 
and Congress should do so.
    Skeptics might protest that the Holder decision still left 
open Section 2 litigation and that is enough. But as we have 
already heard, Section 2 litigation by itself is not enough to 
address the problem. In a nutshell, it is too expensive, too 
drawn out, and too ineffective.
    Expense. Section 2 plaintiffs have to pay credentialed 
expert witnesses and prepare extensive historical and 
socioeconomic analysis to meet their burden of proof. This 
costs money, hundreds of thousands of dollars in some cases, 
and that is not counting attorneys fees, which you only get if 
you win and even then you only get some of it.
    Time. Section 2 cases typically take two to five years, and 
during those years, because courts are reluctant to grant 
preliminary injunctions prior to a full trial on the merits, as 
we have already heard, the discriminatory voting practices are 
in effect often for multiple election cycles.
    Effectiveness. Section 5 had a clear legal standard. 
Discriminatory purpose or retrogression. Easy for litigants to 
argue and courts to enforce. Section 2 standard is more fuzzy. 
Also, Section 5 placed the burden of proof on the jurisdiction, 
which has the access to resources and data.
    It nipped the discrimination in the bud rather than chasing 
after it after it began. Under the Supreme Court City of Bern 
decision, any preclearance resumption would require evidence 
and findings that it was congruent and proportional to the 
societal problem, and under Shelby County we would have to have 
an updated coverage formula.
    Sadly, the plentiful examples of recent voting 
discrimination that we have in the record, including examples 
here in Tennessee, I think will suffice to meet those burdens.
    H.R. 4, one of the bills being discussed, is a reasonable 
response to this record. It limits coverage to jurisdictions 
with a demonstrated pattern of multiple voting rights 
violations within a set time period demonstrated by formal 
findings of discrimination by either a federal court or DOJ.
    While reasonable minds might differ as to the best look-
back period or the minimum number of violations needed to 
trigger coverage, the solution H.R. 4 arrives at does not 
exceed the bounds of appropriate remedial legislation.
    I would recommend one change to the bill, since we are--if 
we are talking about H.R. 4. Section 4(b) identifies as a 
covered practice requiring preclearance any conversion of 
single-member district to a multi-member district or at-large 
election scheme.
    I recommend that a narrow exception be added for when such 
conversion involves the use of proportional or semi-
proportional systems like limited voting, cumulative voting, or 
especially single transferrable vote, such that the relevant 
minority group would be expected under the well-recognized 
threshold of exclusion formula to elect candidates of choice 
at, roughly, the same or greater rate.
    These alternative systems have been used for decades in 
many jurisdictions across the country. Federal courts have 
imposed them as Voting Rights Act remedies.
    They are just as effective as the traditional single-member 
district remedy, in many cases more effective. The law should 
encourage experimentation, not discourage it.
    I will conclude by noting that the right to vote has 
famously and improperly been called the right preservative of 
other rights. Where it is denied victims necessarily lack the 
means to use the local and state political processes to correct 
the problem.
    So, by definition, it is appropriate for external actors, 
Congress, or federal courts to intervene. Doing so does not 
give federalism short shrift but merely gives voting rights 
their fair due.
    I thank the committee.
    [The statement of Mr. Mulroy follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Professor Mulroy.
    Ms. Tequila Johnson is a co-founder and vice president of 
the Equity Alliance, a Tennessee-based nonprofit that equips 
black and brown citizens with tools and strategies to 
strengthen their communities and make government work better.
    Johnson currently also serves as assistant director of 
outreach and student engagement at Tennessee State University 
Center for Service Learning and Civic Engagement.
    In that role, she is responsible for connecting students, 
staff, and faculty with various outreach opportunities and 
managing service learning initiatives.
    In 2018, Ms. Johnson served as statewide manager for the 
Tennessee Black Voter Project, a statewide coalition of nearly 
two dozen local nonprofits working toward the goal of 
registering 50,000 black Tennesseans to vote.
    Under her leadership, the group submitted 91,000 voter 
registration forms. I suspect that possibly influenced the 
General Assembly's new law and I am sure you will discuss that.
    Ms. Johnson is a graduate of Tennessee State University 
where she received her Master's degree in counseling and 
psychology, currently pursuing a Ph.D. in industrial and 
organizational psychology.
    We welcome you to Memphis, another so proud to be at TSU. 
And same song--we kind of copied it.
    You are recognized for five minutes.

                  STATEMENT OF TEQUILA JOHNSON

    Ms. Johnson. Chairman Nadler, Subcommittee Chairman Cohen, 
and Representative Jackson Lee, thank you for giving me the 
privilege to testifying about discriminatory barriers in 
voting.
    My name is Tequila Johnson and I am the co-founder of the 
Equity Alliance. We are a nonprofit organization here who are 
focused on getting more black and brown communities out to 
vote.
    I am a 33-year-old. I was born and raised in Chattanooga, 
Tennessee, and I have lived in Nashville for the past 16 years. 
I am a movement builder. I am a strategist. I am a community 
organizer.
    My passion is to mobilize communities to bring about 
progressive change and to creatively use data, personal 
stories, and organizing strategies to dismantle discriminatory 
barriers to voting and other basic rights.
    For generations, my ancestors--my family, my parents--have 
worked hard to have access and to achieve the American dream of 
life, liberty, and the pursuit of happiness.
    For my family, this included fighting for the right to vote 
and ensuring that our community and other marginalized 
communities have access to the ballot.
    From growing up in the housing projects of Chattanooga, 
Tennessee, to moving to the suburb of Harrison, Tennessee, I 
have traveled across this great state. I have talked to several 
residents and I know firsthand the issues as it relates to 
discriminatory barriers.
    I have always had an interest in creating new movements, 
whether I was in high school, in college, or currently in 
Tennessee and Nashville.
    My strategy has always been to mobilize those who are 
statistically underrepresented and unlikely to exercise their 
voice in a democracy either by voting or registering to vote.
    Through my work, I have began to realize how important it 
is for my community to become self-determining and to exercise 
autonomy through voting. I also realize that there were 
countless systemic and discriminatory barriers to voting that 
have to be dismantled.
    In 2016, I traveled all across the state to almost every 
county and I learned from community members and friends who had 
tried to vote early in person that they had been purged from 
the rolls because they had not voted in the last two federal 
elections. These people didn't recall receiving any kind of 
notice and they had said if they had known they needed to 
reregister they would have.
    Many of the people I talked to said that they just didn't 
know. Prior to 2018, I learned from family and community 
members that a polling location in a predominantly black 
neighborhood of Shelby County, Tennessee, had closed and the 
nearest location was more than 20 minutes away and in a 
predominantly white neighborhood.
    This impacted many people I know because they did not have 
the means to drive and many of them felt uncomfortable being in 
a predominantly white polling location.
    As a result, many just did not go out to vote and voter 
apathy reigned. Tennessee is ground zero for voter suppression.
    Tennessee has some of the most restrictive voting rights 
laws including voting restoration laws. This only allows some 
individuals who were convicted of certain crimes within certain 
years to have their voting rights restored.
    And if you were convicted of any infamous crimes you may 
still not be eligible to vote because the law requires you to 
complete your sentence, fulfill legal obligations such as child 
support and restitution, complete a certification of 
restoration, and many other things.
    I also recently learned that Tennessee is one of the few 
states that views incarceration as willful unemployment, 
meaning that while people are incarcerated their child support 
continues to accrue even though they may not be receiving any 
income.
    I have worked to help people restore their rights to vote--
several people--and I can tell you that it is a daunting 
process, especially for someone who is trying to reintegrate 
into society.
    In 2018, I served as the statewide director for the 
Tennessee Black Voter Project. This project was a collaboration 
between nearly two dozen black nonprofits, organizations, and 
businesses across the state.
    We set a collective goal to submit voter registration forms 
from underrepresented neighborhoods in the state and by the 
voter registration deadline we submitted tens of thousands of 
forms without the support of the secretary of state.
    Then, in 2019, the state legislator came behind and passed 
a new law restricting the ability of civic engagement groups--
poorly funded civic engagement groups--and individuals from 
registering voters in large-scale voter registration efforts.
    The restrictions range from groups receiving consent to 
having to record personal information, not turning incomplete 
forms, acts for public communication regarding voter 
registration, status--that, and much more.
    These violations and provisions would also open civic 
engagement groups and individuals that register large numbers 
of voters up to criminal penalties and civil fines up to but 
not necessarily limited to $10,000.
    Due to these discriminatory barriers to voting and voter 
registration, I believe that Congress--I believe that Congress 
has a constitutional obligation to act to ensure every American 
citizen has equitable access to exercise their voting rights.
    I believe that modern, fair, and free elections are 
critical to removing institutional barriers that have 
suppressed the votes and voices of black voters since 
Reconstruction.
    I believe that passing H.R. 1 was a necessary step, but you 
must not stop there. We need to renew the full Voting Rights 
Act of 1965 that gave African Americans full citizenship in 
this country.
    I also urge you to hold states accountable. A new national 
voter restoration registration act, for example, could limit 
states in what they can do to penalize voter registration 
groups such as mine.
    And they could pass national nationwide mandatory motor-
voter law to automatically register those seeking driver's 
licenses and state ID cards.
    Thank you.
    [The statement of Ms. Johnson follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you very much.
    Appreciate your work and I think--I fear that that was the 
cause of the General Assembly's passage of the law, to inhibit 
people from doing mass voter efforts.
    And you were right about the re-enfranchisement law except 
I sponsored it in the Senate and passed it to where you could 
get reinstated if you completed your sentence, and then in the 
House a man named Stacey Campfield, who was a state rep, put 
the amendment on this that you had to be current in your child 
support.
    The ACLU said--told Representative Larry Turner to accept 
the amendment because they thought they would beat it in court. 
They were wrong. The court didn't strike it down. It should 
have. Unfortunate.
    We now have questions and I am going to first ask Mr. 
Crayton, you maybe can explain to some of the students and give 
your perspective on the opinion in Shelby v. Holder. What was 
the reason they struck down the law and do you feel that the 
record that was compiled that Mr. Nadler said was as many as 
15,000 pages, as much as that, was not complete and sufficient 
to support the passage of the reauthorization of the Voting 
Rights Act?
    Mr. Crayton. Sure. Mr. Chairman, I certainly disagree with 
the decision taken by the majority of the court. The position 
that the chief justice on behalf of the majority offered was 
that while he found no fundamental problems with the concept of 
preclearance, he thought that the evidence presented was not 
sufficient to support the continuance of the provision.
    As you may recall, during the oral argument he made much of 
the difference between Mississippi, as he had observed, that 
had a lower rate--excuse me, a higher rate of registration 
among African Americans than Massachusetts, and if Mississippi 
was covered and Massachusetts wasn't covered, if registration 
was the sort of measure for whether one needed to have that 
coverage he didn't understand. He didn't understand why that 
matched up.
    Now, there has since been some attention to whether or not 
those assessments were accurate. But the main point to think 
about is what the framework, it seems to me, of what 
preclearance was designed to do.
    The chief justice wanted to take a snapshot in 2013 as to 
whether or not the current work of the Voting Rights Act was 
actually still necessary and he seemed to discount, as I think 
Justice Ginsberg offered in dissent, the fact that what he was 
seeing was the result of the protection that Section 5 offered, 
such that without it you might well see a very different 
analysis of places where voting rights were reasonably 
protected, whether--where participation was fairly robust.
    You know, he said the--I think the analogy was something 
like having an umbrella in the midst of, you know, no rain at 
all and say, well, this is clearly stopping the rain, and you 
are thinking, well, that is not quite how that works and you 
can't really know in a natural experiment what the effect of a 
protection is unless you do without it.
    The challenge is, A, we have had that burden borne by a 
specific group of people in the South traditionally and that 
has been people of African descent for a very long period of 
time and it is unfair to take a chance on their backs, I think.
    The other concern was always that the Congress, as we had 
always understood as I taught the Reconstruction amendments, 
has a great deal of discretion to make these judgments and the 
Supreme Court was supplanting its own preferences for 
Congress's.
    And I will just say this and stop. We, in my capacity as a 
professor, a group of political scientists and law professors, 
submitted to the court current data showing that there was 
significant difference in the way in which white voters in 
covered states understood things like race equity, religious 
tolerance--any factor you want to consider.
    There were significant differences that made it more likely 
that the expectation that Congress adopted in 2006 with the 
provision that there was still work to do with preclearance.
    And the court roundly ignored it. And it seems to me that 
if we think that the Reconstruction amendments work the way 
that we do, where Congress is given some discretion to make 
these judgments where it originally was the group that stepped 
in, that the court's role is simply to ask the question as to 
whether or not it was reasonable to do so.
    The court didn't take that approach and I do believe in 
this iteration we have to be mindful of a court that is, 
unfortunately, not usually going to abide by the same approach 
and framework as was evidenced in, say, Boerne because Boerne 
certainly purported to think with respect to the adoption of 
the Voting Rights Act up until 2006 and the court has now 
seemed to depart from that framework and tried to craft its 
own.
    My hope would be that the committee takes that into 
account.
    Mr. Cohen. Let me ask you a question. I think I remember--
the states that were under preclearance were, basically, Texas 
around to Carolina. Was that right? And then maybe Arizona. Was 
it one state outside of the Old South?
    Mr. Crayton. There are a few of them. So parts of Virginia, 
parts of North Carolina were covered. But parts of California, 
Michigan, New Hampshire, New York.
    Mr. Cohen. But there were parts in those jurisdictions.
    Mr. Crayton. Parts of.
    Mr. Cohen. But was it not the entire state of Mississippi, 
Alabama, Georgia, Texas, Louisiana--the entire state?
    Mr. Crayton. Correct.
    Mr. Cohen. And is Arizona the entire state or was it just 
portions?
    Mr. Crayton. I believe it is the entire state.
    Mr. Cohen. Yeah.
    Mr. Crayton. Or was.
    Mr. Cohen. And then the smaller areas which were 
jurisdictions within New York, Michigan, et cetera, population 
wise would you think it was accurate to say that 85, 90--a 
large great percentage were in the states of the old 
Confederacy?
    Mr. Crayton. Correct. That is fair.
    Mr. Cohen. And the court said that we needed to have a new 
formula to see if there were other jurisdictions that belonged 
and/or other--some of the jurisdictions that might have been 
out.
    Is that in some ways like the Supreme Court asking Congress 
to tell the court how many beans there are in a jar?
    Mr. Crayton. Mr. Chairman, I hadn't thought about it that 
way. But----
    [Laughter.]
    Mr. Crayton [continuing]. The analogy seems pretty apt to 
me. And I think the other thing, just briefly, to point out is 
it ignores the transformative goal of the Voting Rights Act in 
this part of the country.
    It is not to ignore other parts where elements of this were 
relevant but to have stopped the progress of a long-term 
project was to turn its back, I think--the court turning its 
back on the long-term effort to change culture and structure, 
and that is just not something that you can put a stopwatch on. 
I think that is, unfortunately, what is relevant in the Shelby 
County decision.
    Mr. Cohen. Thank you, sir.
    I know recognize the chairman, Mr. Nadler, for five minutes 
of questioning.
    Mr. Nadler. Thank you.
    I think it was Professor Mulroy who mentioned City of 
Boerne. The City of Boerne case threw out the applicability to 
the states of the Religious Freedom Restoration Act. That was 
the prime purpose of that decision.
    Mr. Mulroy. Yes.
    Mr. Nadler. Could you elaborate how it affected the--what 
we are talking about, the Voting Rights Act?
    Mr. Mulroy. Yes. Well, as you correctly stated, in the City 
of Boerne case the Supreme Court----
    Mr. Nadler. Could you talk a little closer to the mic?
    Mr. Mulroy. Oh. Yeah. The city--in the City of Boerne case 
the Supreme Court struck down the Religious Freedom Restoration 
Act as it applied to state and local governments on federalism 
grounds, and interesting--what they did was they contrasted the 
record that had been set up for the Voting Rights Act with the 
sparse record, at least as they saw it, for RFRA--the Religious 
Freedom Restoration Act.
    So they said, look, we saw with the Voting Rights Act 
extensive record testimony before Congress, extensive 
legislative findings that voting discrimination was widespread, 
pervasive, extremely problematic societal wide.
    We see no such similar record with respect to state and 
local governments failing to give accommodations to religious 
minorities. There is no such epidemic of that in the record 
that we can see.
    So, therefore, this federalism cost of the federal 
government top down mandating what state and local governments 
will do is not a valid exercise of Congress's admitted 
authority under Section 5 of the Fourteenth Amendment----
    Mr. Nadler. So this is, in effect--it is, in effect--said 
there is a good record--a sufficient record in----
    Mr. Mulroy. Yes.
    Mr. Nadler [continuing]. In the Voting Rights Act----
    Mr. Mulroy. Yes.
    Mr. Nadler [continuing]. Which they completely overturned.
    Mr. Mulroy. Yes. Then a few years later they overturned 
that very record. The one way you might be able to reconcile 
those two, Mr. Chairman, is to say if you take the majority 
opinion at its word, they were concerned about whether the 
coverage formula was up to date.
    And since the coverage formula focused so much on 
registration rates they said, well, look, registration rates 
have balanced so, apparently, there is no more problem. If you 
do a coverage formula that is not based on registration rates 
but is based on actual proven demonstrated instances of Voting 
Rights Act violations, then, theoretically, at least, they 
should not be able to lodge that objection.
    Mr. Nadler. I have always read the Shelby County decision 
as saying that Section 4 was unconstitutional. Basically, you 
know, it is not that necessary anymore but basically it is 
unconstitutional because the invasion of the states' rights to 
conduct their own elections, which might be justified by a 
bad--a history--cannot be justified by a test--a Section 4 test 
based on ancient history, looking back to pre-'64.
    Mr. Mulroy. Yes.
    Mr. Nadler. And as almost inviting Congress to enact a 
modern Section 4 based on more current data--that that would 
clearly by constitutional.
    So I want to ask----
    Mr. Mulroy. I think that is fairly stated, yes.
    Mr. Nadler. Hmm?
    Mr. Mulroy. I think that is fairly stated, what you just 
said.
    Mr. Nadler. Okay. And that is why we have drafted the 
legislation we are talking about and we have made many attempts 
over the years to--I never understood, by the way, why you had 
to establish--Steve Chabot, as chairman, and I, as ranking 
member of this subcommittee, back in 2006 sat through 15,000 
pages of hearings to establish a robust record.
    I am not sure why it is the province of the Supreme Court 
to tell Congress how big a record to make before making 
legislative decisions. But we are doing that again right now.
    But it seems to me that if you had a modern test you could 
justify this even under Shelby County. It seemed that they 
almost invited us to.
    Dr. Crayton, if we had a test in the legislation that 
looked to practices that had been thrown out by courts in the 
last few years or that had been shown to be discriminatory in 
their effects in various trials, that might not be just in the 
South.
    It certainly wouldn't be just in the South--voter ID laws, 
for instance. That is essentially what we are looking at. Would 
you comment on that?
    Mr. Crayton. To take the earlier point, I think that is one 
of the features that might make this court more comfortable and 
I would take the view generally that if we are of the position 
that going after suppression-oriented policies is the goal then 
we should do that no matter where it happens to live.
    I just would offer, again, from our perspective that we not 
lose sight of the region-specific concerns that gave rise to 
that in the first place.
    Mr. Nadler. But how would you write into law the region 
perspective?
    Mr. Crayton. The suppression pieces of it, I think, are 
quite well stated. I think I would consider whether or not, as 
we were discussing earlier with respect to the length of period 
that we would look back on bad activities, or perhaps even 
things that were said on the floor of a legislature.
    We had, in Shelby County, a lot of information about things 
that we were seeing.
    Mr. Nadler. Certainly things that were said on the floor of 
the legislature. You couldn't look back too far because the 
Supreme Court would say you can't do that.
    Mr. Crayton. Yes, sir. Although it is quite clear, as I 
think has been said earlier in the statements, since 2013 and a 
lot of people raced without very much hearing or effort at all 
and that might be some evidence of something other than good 
decision making.
    Mr. Nadler. Thank you.
    Finally, Ms. Johnson, the Tennessee legislature put on 
rather draconian penalties and--restrictions and penalties on 
voter registration drives. How do you think a federal law could 
adjust that kind of a problem?
    Ms. Johnson. Thank you, Chairman.
    I definitely think that something needs to prevent them 
from having the autonomy to be able to do things like that. I 
definitely think that reenacting the civil rights law the way 
it was, preventing them from having that autonomy, would help, 
because right now there is no oversight. They are, literally, 
able to do whatever they want to do.
    Mr. Nadler. Thank you.
    Mr. Cohen. Thank you, Mr. Nadler. Now I recognize Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    And to the witnesses, your work is provocative and I thank 
you very much. I am going to try and sort of do meteoric 
questioning and try to get a large global picture of this 
issue.
    Let me just suggest that I find the Shelby decision 
partisan in its most appalling way. I cannot find a legitimate 
basis of at the period of 2013 of taking the stance that they 
did.
    And I think that Justice Ginsberg's most prominent comment, 
that you don't get rid of the polio vaccine because you think 
you have overcome polio, is so potent for even where we are 
today.
    Let me quickly go to you, Professor Crayton, just quickly 
on this question of the criminalization of the ballot box. So 
we have a new opportunity in the restoration of the Voting 
Rights Act now and we certainly have a bill that has already 
been on the table.
    But how important do you think it is that, as we write this 
legislation, that we have language that really speaks directly 
to that?
    Make this document so clear and this question of 
criminalization--what I understand or what I feel is poor folk 
who are registering and states are putting in laws that are 
layered and so you can be a grandmother trying to register and 
you can be prosecuted.
    How important it is for that precise aspect to be covered?
    Mr. Crayton. I think you have identified one significant 
piece of it where I think it is crucial so that people who are 
in good faith who are engaged in registering other people are 
not unfairly prosecuted or intimidated from doing that.
    And so part of that is, I think, charged to states to be 
very clear about what is and isn't permissible and perhaps not 
to be able to change the rules without very much notice.
    And I would also point out that for people who have served 
time, who, the time that they were in prison, according to some 
rules, they weren't allowed to vote.
    But once they are out there are instances where people have 
not completed their fines and fees, that creates confusion 
about when a person is----
    Ms. Jackson Lee. But should our bill give relief by using 
that terminology in the--even though we are focused around 5 
and 4 but gives--you have some terminology about 
criminalization?
    Mr. Crayton. I would like to see some attention put so that 
prosecutors who are not thinking about the real-world 
consequences or perhaps are about how voters can be intimidated 
by the use of state power.
    It should be a part--I hope for it to be a part of the 
federal language so that at least people think twice before 
utilizing that power because I think, unfortunately, what 
people don't take appreciation of is not just the people that 
they are targeting are people who then become intimidated but 
everybody around them--their family members, their friends, 
their communities--and that is where I think the undermining of 
confidence becomes a real consideration.
    Ms. Jackson Lee. H.R. 1 is the global--I think we have an 
opportunity to hone in on some of these aspects of what we are 
hearing as we go around the country and the real testimony of 
people.
    Professor Blumstein--I am sorry. Yeah. Blumstein. Let me 
thank you for your work, and it is interesting that you are 
able to get a common sense opinion out of the Dunn case, which 
is you were able to get the court to be able to ascertain the 
unfairness of a time frame, which also goes to denying citizens 
the common sense right to vote.
    Is there something that we need to focus in on this 
reauthorization of the Voting Rights Act that would be 
attractive or would be plain sense to the Supreme Court that 
what we are doing is saying that the Constitution in its 
framework gives people the right to vote, and so duration and 
other aspects short of outright conspicuous fraud, which has 
not been determined, should be--should not be reasons why 
people should be able to vote?
    Mr. Blumstein. I am not sure I have a good answer to that 
question. There is a more general issue, I think, 
Representative, and that is how does one engage someone who may 
have a different point of view in a way that is likely to bring 
about some change in attitude or change in perspective.
    And I think the concerns, for example, that I would have--I 
think Professor Mulroy was very articulate in expressing his 
view that Section 2 of the Voting Rights Act is not as 
effective as Section 5.
    But there were problems about the administration of Section 
5 as well. My colleague, Carol Swain, has written about whether 
maximizing black representatives is a better avenue for 
achieving certain goals.
    So I think that--I think that the--if you are asking how 
can people disagree on some things, how can they reach 
agreement on some other things, I will just reiterate what I 
said in my testimony, which is starting with respect for the 
views of the other point of view.
    And so in this case, I have to say that Section 5 of the 
Voting Rights Act, going back to South Carolina v. Katzenbach 
in 1965 was seen as a conquered province approach, heavy 
handed, but justified at the time because of the abuses--I have 
written about this--the abuses of the time.
    And so I think the case has to be made not just that there 
were problems but that there are problems of a magnitude that 
justify the stripping of the state autonomy and impinging upon 
federalism.
    So it is not just here is a case, here is a case--gosh, we 
have to bring an expensive piece of litigation. That is our 
American way. We are presumed innocent.
    In Section 5 you are presumed guilty, and I think that that 
was okay in 1965. I think the case has to be made in 2019 or 
2020 that we are in the same place and I think that--it can't 
just be, you know, we don't like it as well.
    I mean, if you are asking how to be an effective advocate, 
I am skeptical, really, because I think that the argument has 
to be made that the values are so overwhelmingly positive as 
they were in 1965 as to abrogate the tradition of states' 
authority, states' autonomy, and the presumption of innocence.
    Ms. Jackson Lee. Thank you. That is the record that we are 
trying to create.
    Let me go to Professor Mulroy and Johnson, very quickly.
    Professor Mulroy, if you can, again, just sort of hit on 
the insufficiency of Section 2 and then the amendment that you 
wanted to see included in this reiteration of the Voting Rights 
restoration.
    I just want to say to the professor who just spoke, I am 
looking at preciseness but I am also looking at legislation 
that takes a view that answers pointedly the court's 
criticisms. The professor just indicated there is a mountain of 
reasons that we need to restore and we need to have that in our 
legislation.
    So Section 2's inefficiency or lack--the horse is out of 
the barn door--and then I just want Ms. Johnson to be prepared. 
What an amazing story of your life that many people just 
forget.
    And so I would be interested in your view that this tool of 
the Voting Rights restoration--this bill is the armor that is 
needed for vulnerable people in communities that you have seen.
    Professor.
    Mr. Mulroy. Yes. Thank you. So I will answer those 
questions in turn.
    Section 2, which I litigated a lot when I was at the voting 
section, is an effective piece of legislation but not nearly as 
effective as Section 5.
    In order to--when we were at the DOJ and we had resources 
to--unlimited budgets to pay for expert witnesses and to, you 
know, throw manpower at a problem, we could mount a Section 2 
case. But private litigants, it is a very daunting task to put 
out that kind of money.
    And at the same time, it takes years and during those years 
the voting discrimination practice continues in election cycle 
after election cycle.
    And, of course, the burden is on the plaintiff to prove the 
violation whereas under Section 5 preclearance the burden is 
shifted, the idea being that the burdens of time and inertia 
should be shifted away from the victims of discrimination to 
the perpetrators of discrimination, which is what the whole 
point of Section 5 preclearance was.
    As to that amendment, just very briefly, it is a minor 
point but, but under H.R. 4 it says among the voting changes 
that will automatically trigger preclearance review will be 
anytime you move from a single-member district plan to a multi-
member or at-large plan.
    Now, that makes total sense given the history that we have 
used in the past where we have used a traditional winner-take-
all at-large or multi-member plan to dilute minority voting 
strength.
    But there are some multi-member and at-large systems that 
don't dilute minority voting strength. Cumulative voting is one 
example. The single transferrable vote is another.
    And different local jurisdictions have experimented with 
these things including as remedies in Voting Rights Act cases 
to solve minority vote dilution.
    So all I am suggesting is that when it is that type of 
shift from a single-member district to multi-member or at-large 
where you put in special voting rules to account for minority 
vote dilution and it looks like it will, in fact, then you 
wouldn't necessarily trigger Section 5 preclearance.
    So what I am trying to say is let us not discourage 
experimentation with those methods because in many ways they 
can be better than the traditional single-member district 
remedy for minority vote dilution.
    And then, briefly, if I could, Congresswoman Jackson Lee, 
just to respond to something we just heard a second ago about 
whether the magnitude of the problem is demonstrated in the 
record, I would just like to point out that the U.S. Civil 
Rights Commission did a really comprehensive study in 2018--an 
assessment of voting rights problems--and among the things they 
pointed out was that there were only five successful Section 2 
lawsuits for minority vote dilution in the five years prior to 
Shelby County v. Holder and 23 in the five years after.
    And I think that provides dramatic evidence that some of 
what you have already been talking about, which is that once 
you took Shelby County v. Holder--took that umbrella away from 
the rainstorm you started to see a proliferation of Voting 
Rights Act violations, particularly this new generation of vote 
suppression.
    And I think that record might very well demonstrate to the 
Supreme Court that a resumption of Section 5 preclearance is 
warranted.
    Ms. Jackson Lee. And, Ms. Johnson--I called you Professor 
Johnson--Dr. Johnson, to be with your grandmother and what a 
powerful story.
    But let me ask this as we write this legislation. I think 
it would be important--you think it would be important--to 
refer again to the importance of, one, not criminalizing 
voting, but two, to ensure ex-felons can vote and that it 
should be clearly stated.
    Your view, if you would?
    Ms. Johnson. Yes, I agree with you. I would like to say 
also I think some simple measures that could be made is, one, 
really looking at the paper forms and if we are not going to 
move to automated voter registration then what information--
what necessary information is required, particularly in the 
state of Tennessee.
    One of the things--one of the issues that we ran into was 
the nuance of the form. It should be in alignment with the 
national voter registration form.
    Another thing is making sure that as we are talking about 
restoring felons' rights to vote that we are considering some 
of those barriers such as child support, parole, probation--how 
do we go through that process and making sure that it is a 
streamlined process that has some sort of federal mandate that 
restricts states from gutting that and making it something more 
nuanced than it needs to be.
    But I completely agree with you. I think that we really 
need to think about how this affects those marginalized 
communities and make sure that as we are proposing this 
legislation that we are considering those barriers.
    Ms. Jackson Lee. Thank you.
    Mr. Cohen. Thank you, Ms. Johnson, and thank you, 
Congresswoman Jackson Lee. And I think one last follow-up from 
the chairman.
    Mr. Nadler. Let me first thank the chairman of the 
subcommittee for his indulgence in permitting me this extra 
question.
    Professor Blumstein, you mentioned a few minutes ago that 
one question is that back in 1965 you had very severe 
restrictions and, more recently, at the time on Shelby County--
at the time of Shelby County you didn't have the record of the 
heavy-handed overwhelming suppression.
    And I think what you said or implied was that the burden of 
proof--there is a burden to show that in order to justify the 
intrusion on federalism that the burden is to show that the--
that the cause is so overwhelming that--as it was justified in 
1965 but, arguably, not in 2013.
    But even granted that, isn't that a quintessentially 
congressional determination not for a court--for Congress to 
determine the necessity of legislation in the severity of a 
problem? Isn't that why we exist?
    Mr. Blumstein. Well, certainly, Congress has a very 
important role in Section 2 of the Fifteenth Amendment and 
Section 5 of the Fourteenth Amendment to enforce the terms.
    Part of the issue is that the Supreme Court's 
interpretation of the Fifteenth Amendment and the Fourteenth 
requires purpose, showing of intent to discriminate.
    And so as the law has gone beyond purpose to effect that is 
where the question of Congress's enforcement power is called 
into question. If this were really a showing only of 
discriminatory purpose, I think the congressional role would be 
easier.
    As one moves from purpose to effect, which is what the 1982 
amendments to Section 2 of the Voting Rights Act did and the 
interpretation, then there is a judicial role for determining 
whether Congress is enforcing the provisions of the Fifteenth 
and Fourteenth Amendments or whether it is going beyond, and I 
think that is where the judicial role comes in.
    And I think that it was Justice Black's dissent in South 
Carolina v. Katzenbach, if I recall, where he talked about a 
conquered province. And so there is a history. I mean, this is 
my adopted region. As we spoke earlier, I am from Brooklyn. I 
originally was in New York when I was----
    Mr. Nadler. Which was a covered jurisdiction.
    Mr. Blumstein. Which was a covered--yes. And I grew up in a 
New Deal family. My middle name is Franklin and I was named for 
President Roosevelt. I was born 12 days after he died. So I am 
not unsympathetic to these considerations.
    On the other hand, when I grew up in Brooklyn I never heard 
about federalism. That was just not something that was on my 
radar. No one thought about it in my high school or in my 
circle of friends.
    And as you go out into the rest of the country, I think one 
sees that those values are not trivial. They don't trump 
always.
    But they are important considerations, and in the 
discussion about how far Congress can go in overturning 
important principles of state autonomy and state independence 
and state power, one has a judicial role to determine what the 
degree of protection of those interests is.
    And I think we have seen the Supreme Court waffling back 
and forth on these federalism cases and they are looking for a 
standard.
    I think, you know, Shelby County was one, I recall, 
interstitial case inviting Congress to do a better job of 
identifying these areas, and in response to the representative 
from Texas's question, I thought she asked a very important 
question--how do you persuade somebody who might not agree with 
you on every--on all the issues--how do you talk to them as 
people.
    And I think--I have spent my whole life doing things like 
that and trying to bring people together from different points 
of view and get people to talk to each other rather than across 
each other and be less rhetorical.
    And I think part of the answer is to respect the value of 
federalism, not to denigrate it, but to say that there are 
countervailing values that are more important, and to the 
extent that one can make the case that voter suppression where 
the voter activity like it was back in 1965 is still prevalent, 
that is a stronger argument.
    Now, in a piece--I testified on the 1982 amendments to the 
Voting Rights Act and was published in a article in the 
Virginia Law Review. What you had was really pretty horrible.
    As I said, the jurisdictions refused to take no for an 
answer. They would do X and then the court would strike it 
down. They would do Y.
    It was like a whack-a-mole, and I think there was a very 
strong piece of evidence as to why the timing that Professor 
Mulroy talks about should be preserving what was really used as 
the freezing principle to freeze in place things the way they 
are.
    But as that doctrine developed, things like zoning got 
included in that. It was much more intrusive upon state 
autonomy than one would have thought and the rationale I think 
has--I am not saying it doesn't exist but it is less than it 
was.
    And so I think that is the argument that has to be made. To 
me, as someone who is not unsympathetic to these values but who 
also cares about things like federalism, I would want to see 
not just how there are examples of things that are bad but how 
the persistence, the pervasiveness, is comparable to what it 
was when the Voting Rights Act was passed and approved in South 
Carolina v. Katzenbach. That is the best I can do, 
Representative Nadler and Chairman--Mr. Chairman, to that. 
Thank you for your question.
    Mr. Cohen. Thank you, sir. You did an excellent job.
    That concludes our questioning in the first panel. We will 
have a break for about five or 10 minutes before we bring our 
second panel.
    I think the first panel for their time and their very 
important testimony.
    We are recessed for about five or 10 minutes.
    [Recess.]
    Mr. Cohen. Thank you, everybody.
    As you heard, those are the wonderful sounds that say we 
are in the majority, because you got the gavel. That is a good 
thing.
    Turning to our second panel, our first witness will be Mr. 
Jon Greenbaum. Mr. Greenbaum is chief counsel and senior deputy 
director for the Lawyers' Committee for Civil Rights Under Law. 
He has worked in various roles since 2003.
    From '97 to 2003, he was the senior trial attorney in the 
voting section of the Civil Rights Division at the U.S. 
Department of Justice. He investigated, filed, and litigated 
Voting Rights Act cases around the country and evaluated 
redistricting plans and other voting changes under Section 5 of 
the Act.
    He received his JD from UCLA, a school that came to Memphis 
and lost recently, and a BA in history----
    [Laughter.]
    Mr. Nadler. In what sport?
    Mr. Cohen. Football.
    Mr. Nadler. Okay.
    [Laughter.]
    Mr. Nadler. We will take that----
    [Laughter.]
    Mr. Cohen. And his BA in history and legal studies from the 
University of California Berkeley. Mr. Greenbaum, you are now 
recognized for five minutes and you can defend the Bruins as 
much as you want to. [Laughter.]

 STATEMENTS OF JON GREENBAUM, CHIEF COUNSEL AND SENIOR DEPUTY 
DIRECTOR, LAWYERS' COMMITTEE FOR CIVIL RIGHTS UNDER LAW; JAMES 
   BLUMSTEIN, UNIVERSITY PROFESSOR OF CONSTITUTIONAL LAW AND 
 HEALTH LAW & POLICY, VANDERBILT UNIVERSITY LAW SCHOOL; HELEN 
BUTLER, EXECUTIVE DIRECTOR, GEORGIA COALITION FOR THE PEOPLES' 
 AGENDA; JAMES TUCKER, PRO BONO VOTING RIGHTS COUNSEL, NATIVE 
                      AMERICAN RIGHTS FUND

                   STATEMENT OF JON GREENBAUM

    Mr. Greenbaum. Chairman Nadler, Subcommittee Chairman 
Cohen, and Representative Jackson Lee, thank you for giving me 
the privilege of testifying about discriminatory barriers in 
voting.
    I have been a voting rights lawyer since 1997 for seven 
years in the Voting Section of DOJ and for more than 15 years 
at the Lawyers' Committee, a national nonprofit civil rights 
organization that focuses on issues of racial discrimination.
    My conclusions are drawn from that long and deep 
experience. The 2013 decision of the United States Supreme 
Court in Shelby County v. Holder is the single greatest setback 
to voting rights in the modern era.
    The decision found unconstitutional the coverage formula 
used to determine what areas of the country were subject to 
Section 5 of the Voting Rights Act.
    Section 5 had required jurisdictions with a history of 
discrimination to demonstrate to DOJ or a federal court that a 
voting change did not have a discriminatory purpose or effect 
before the change could be implemented.
    For nearly 50 years, the preclearance process was 
effective, efficient, and transparent. I witnessed this 
firsthand at DOJ, which received almost all submissions in the 
first instance.
    Regarding effectiveness, from 1965 to 2013, DOJ issued 
approximately 1,000 determination letters denying preclearance 
for over 3,000 voting changes.
    In addition, because the Section 5 process existed, 
jurisdictions were deterred countless times from making 
discriminatory changes in the first place.
    Additionally, the Section 5 process served as a notice 
system because jurisdictions had to submit their changes for 
review before implementing them.
    The process was also efficient and transparent. The 
submitted change would go into effect unless DOJ acted in 60 
days. DOJ published Section 5 procedures that provided 
transparency as to DOJ's process; gave covered jurisdictions 
guidance on how to proceed through the Section 5 process; and 
gave the public an opportunity to offer input.
    Because DOJ consulted with minority constituencies as part 
of its review process, jurisdictions were incentivized to 
involve minority communities before making voting changes.
    In Shelby County, the five-member majority said that 
because the coverage was comprised of data from the 1960s and 
1970s, it could not be rationally related to determining what 
jurisdictions, if any, should be covered under Section 5 
decades later, regardless of whether those jurisdictions 
continue to engage in voting discrimination.
    Significantly, the majority made clear that ``[w]e issue no 
holding on Section 5 itself, only on the coverage formula. 
Congress may draft another formula based on current 
conditions.''
    The rest of my testimony focuses on why Congress should 
take the Court up on its invitation and draft another formula.
    We have six years of experience which demonstrates the hole 
left by the gutting of Section 5. In place of the transparent, 
efficient, and effective system of protecting minority voting 
rights with Section 5, we have to protect minority voting 
rights with less information, greater expenditure of resources, 
and less effective legal remedies.
    Most voting changes take place under the radar. Advocates 
and voters may not know a voting change has been made until a 
voter learns on Election Day that she or he is not on a 
registration list or that a polling place has been moved.
    Legal and grassroots organizations have made tremendous 
efforts and expended substantial resources to substitute for 
Section 5. The most effective of these efforts has been in 
Georgia and you are hearing today from our close partner, Helen 
Butler, on that.
    We have been able to stop numerous proposals before 
enactment and the Lawyers' Committee has filed suit 12 times in 
Georgia since Shelby County.
    Still, all of our efforts cannot be as effective as a 
revitalized Section 5 because there is no way to cover 
everything. Further, even when we win in litigation, often the 
damage has already occurred and is sometimes irrevocable.
    A searing example is the purge of black voters in Hancock 
County, Georgia, that we stopped but only after a white mayor 
was elected in a majority black city for the first time in 
decades.
    The Texas voter ID law had been blocked by Section 5 pre-
Shelby County. After Shelby County, the civil rights community 
spent years successfully challenging the law during which time 
Texas used the discriminatory law. The civil rights community 
in the state of Texas spent more than $10 million in the 
litigation.
    The prevalence of voting discrimination remains high, 
particularly in the places formerly covered by Section 5. The 
Lawyers' Committee has been involved in 41 cases since the 
Shelby County decision, including four against the federal 
government.
    Of the other 37 cases, 29 of them involve covered 
jurisdictions. Moreover, we have sued seven of the nine states 
that were fully covered by Section 5 formerly.
    In my view, the geographic coverage formula contained in 
the VRAA's amendment to Section 4(b) satisfies the 
constitutional concerns articulated by the Court because it is 
based on current data, is designed to address current problems, 
and targets only jurisdictions that have engaged in persistent 
voting discrimination over a sustained period of time.
    I look forward to your questions.
    [The statement of Mr. Greenbaum follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you very much.
    Mr. Blumstein, I think, knows that he gave an opening 
statement in the first panel. He is going to participate in the 
second panel for questions but not for an opening statement.
    Mr. Blumstein. What I said was I would not have an opening 
statement but I didn't really--five minutes went a lot faster 
than I thought they would. So I actually have a few comments 
that I----
    Mr. Cohen. We will get to you in questioning, I assure you. 
I will ask you some questions----
    Mr. Blumstein. But I do have some comments that were kind 
of left over from my presentation that I had to edit out, Mr. 
Chairman. So if you will indulge me, I do have a few minutes 
that I would like to say a few words.
    Mr. Cohen. I will indulge you because I am that kind of 
guy. [Laughter.]
    Mr. Blumstein. I appreciate that. Thank you. I feel very 
indulged.

                  STATEMENT OF JAMES BLUMSTEIN

    Mr. Blumstein. I want to say a few----
    Mr. Cohen. Pull closer to the microphone.
    Mr. Blumstein. Sorry. A few--a few things from Dunn v. 
Blumstein and then some things about the current.
    First, about Dunn v. Blumstein--when I brought that case, I 
got death threats, and the Tennessean used to publish--the 
Tennessean used to publish the addresses of their sources in 
the newspaper. I had to make a special appeal to the editor to 
take that out of the newspaper so people would not know where 
to come.
    I think that is evidence that times have changed to a large 
degree. Not completely. I don't want to overstate that. But 
death threats are not part of the--of the system now and the 
challenge to existing law or existing circumstances.
    The state is very different. The county is very different. 
There is a story about mootness. One of the issues that that 
case dealt with was the fact that I had already lived here 90 
days by the time the election was coming around and the three-
judge court wanted to throw out the 90-day issue, and I 
explained to them that that was a doctrine of capable 
repetition yet evading review, which I still teach in my con 
law classes.
    And I wrote a 16-page legal-sized memo on that issue. I 
realized I had a problem--that Judge Gray was one of the judges 
on the panel. Threw his glasses down and said, I don't care 
what you say--it is moot.
    So I wrote this memorandum and I learned later that he had 
ordered it to be drafted, that it was moot, but that he read 
the memorandum, was persuaded and changed his mind. And he 
wouldn't ever let me have the satisfaction of knowing that I 
had changed his mind.
    So he said the plaintiff is excessively nervous about the 
mootness of that point of the case but he should know there is 
a doctrine called capable of repetition yet evading review. But 
that was actually the basis of a 16-page memorandum. But if you 
were to look at the federal supplement you would see that 
somehow I was a nervous Nellie.
    The decision to appeal--the attorney general was actually 
quite affected by the evidence about voter registration and 
that voter registration took away the need for these lengthy 
durational residency and you didn't have to disenfranchise 
people and still not compromise the integrity of the ballot.
    And so I asked him whether he was going to appeal, and he 
said, well, you know, you have kind of persuaded me I have a 
duty to appeal, and he was kind of wishy-washy about it.
    So I said, okay, you have 90 days. Let me know.
    We opened the door, he goes out, and here was all the news 
stations from Nashville, radio stations, print media. There 
were about 15 microphones and klieg lights, and someone put a 
mic in front of this face and said, General Pack, are you going 
to appeal this case to the Supreme Court. He looked at all the 
lights, we are going to fight it all the way. It took him less 
than 90 seconds to make that decision, far from 90 days.
    So politics has an effect. It makes a difference upon 
public officials in how they--how they act in that--in that 
regard.
    The last point about that case is I want to mention that 
the provisional ballot had its origins in that case--the 
provisional ballot. This is something that I dreamed up right 
on the spot and it is now part of federal law. So that case, I 
think, is important for that as well.
    Now, the congresswoman from Texas raised an important 
question and I want to just develop that a little bit because I 
take that very seriously and I tried to give a serious and 
thoughtful response to the question, which it deserved.
    If we are in a world where there is mixed opinions--
different opinions--what am I looking at from the Republican 
side that is a real risk, going forward, and how could the 
Democrats gain some common ground?
    I think the Supreme Court's recent decision holding that 
partisan gerrymandering is a nonjusticiable question raises a 
real risk and I think the Pennsylvania Supreme Court decision 
that redid congressional apportionment in Pennsylvania is a 
real threat.
    There is federal law on this. I think if the interest was 
shown to, in a sense, stop court intervention and essentially 
reapportioning based upon state constitutional provisions where 
we are putting some constraints upon court's ability to do 
that, of course, the Constitution gives that power to the 
states, not to the courts.
    And so I think in terms of responding, Representative 
Nadler, to your point, that if one is looking for common ground 
that is where I would go fishing would be on putting restraints 
upon state supreme courts seemingly adopting partisan outcomes 
in those cases, given the nonjusticiability holding----
    Mr. Nadler. I am sorry. I didn't understand what you are 
saying. Are you suggesting that Congress should put 
restrictions on state supreme courts from making such 
decisions?
    Mr. Blumstein. For congressional elections. Correct.
    And it already exists. It is already in federal law. But it 
needs to be qualified. The Pennsylvania Supreme Court 
apparently was not aware of the statutory restrictions that 
exist on this and updating and clarifying them, I think, would 
be important. State supreme courts have a role to play but not 
to apportion.
    So my position--do I have time to respond, Representative? 
I don't want to over--I don't want to----
    Mr. Cohen. We have hit the time and we are going over. But 
we are going to have a question period and we will come back to 
you.
    Mr. Blumstein. Okay. I will shut. Thank you.
    Mr. Cohen. And I appreciate it.
    Mr. Blumstein. I don't want to abuse your indulgence so I 
appreciate that very much.
    Mr. Cohen. I thank you for your testimony, and this is a 
little out of order, too, but I will say two things.
    If you saw the Twitter terrorists that I see, death threats 
still exist. We haven't changed that much. We get death threats 
in Congress a lot now on Twitter.
    And number two, you say times have changed, and times have 
changed some. And I wish we could just introduce a song into 
our appeal of Shelby County v. Holder. In Dixie there is a 
reason they say old times there are not forgotten, and they 
didn't forget them. That is so states haven't changed.
    Ms. Butler, thank you. You are executive director of the 
Georgia Coalition of the Peoples' Agenda. In that role, she 
leads an advocacy organization convened by the revered 
legendary Dr. Joseph Lowery and comprised of representatives 
from the human rights, civil rights, environmental, labor, 
women, young professionals, youth, elected officials, peace and 
justice groups--round up the usual suspects--throughout Georgia 
and other southeastern states.
    She leads initiatives to increase citizen participation of 
the governors of their communities in areas including 
education, criminal and juvenile justice reform, protecting the 
right to vote, and economic development.
    Ms. Butler, welcome, and I think Ms. April Hubbard's not 
here but she was here, I think. There she is. I thought you 
would have red on. The Deltas are recognized. Ms. Butler is a 
Delta and we thank you for being here. [Laughter.]
    Mr. Cohen. Thank you, Ms. Butler, and thank you, Ms. 
Hubbard.

                   STATEMENT OF HELEN BUTLER

    Ms. Butler. Thank you, Chairman Nadler, Subcommittee 
Chairman Cohen, and Representative Jackson Lee. Thank you so 
much for the opportunity to testify before you today about my 
experiences with discriminatory barriers to voting.
    I was born and raised in Georgia and was one of the first 
50 African-American students to attend the University of 
Georgia after the integration of the school by Charlayne 
Hunter-Gault and Hamilton Holmes.
    Prior to joining the nonprofit world, I spent more than 20 
years working in the business world with General Motors and in 
the wholesale and retail grocery industry.
    In 2003, I was recruited to join the Peoples' Agenda and 
began my career in the nonprofit sphere. I also serve as the 
convener of the Black Women's Roundtable of Georgia and as a 
board member of the Morgan County Board of Elections.
    I am a past member of the state of Georgia Help America 
Vote Act advisory committee and was appointed to serve on the 
U.S. Commission on Civil Rights as a member of the Georgia 
Advisory Committee in 2013.
    As a result of my civic engagement work with the Peoples' 
Agenda and lifelong experience as a Georgia native and voter, I 
have witnessed firsthand discriminatory barriers to the ballot 
box that Georgians of color face and how the lack of 
preclearance in the aftermath of the Supreme Court's decision 
in Shelby v. Holder has made it much more difficult for 
nonprofit organizations like the Peoples' Agenda to protect the 
vote and ensure equal access to the ballot for voters of color.
    It is impossible for me to recount in the allotted five 
minutes all of the numerous ways the loss of preclearance after 
the Shelby decision has negatively impacted voters of color and 
civic engagement organizations in Georgia.
    But I will provide a few examples. Since the Shelby 
decision, polling place closures, consolidations, and 
relocations, particularly in minority and underserved 
communities, have dramatically increased in Georgia.
    In fact, in 2015, former Secretary of State Brian Kemp 
issued a training document to all 159 county boards of 
elections ahead of the 2016 election cycle describing how they 
could close or consolidate polling places and voting precincts 
without having to preclear these changes through DOJ.
    In fact, the reference to the lack of preclearance in the 
document was in bold type for emphasis. With the loss of 
preclearance, my organization and partners have spent countless 
hours attempting to monitor 159 boards of elections to see 
whether they are proposing polling place changes or other 
voting changes that would negatively impact minority voters.
    We have spent considerable time and resources advocating 
against these changes in minority communities across the state. 
All of this increased work and diversion of resources is a 
direct result of the absence of preclearance post-Shelby.
    But as a result of our increased monitoring efforts, we 
have also discovered illegal purges of minority voters by 
county election boards including the notorious discriminatory 
purging of black voters from the Hancock County registration 
lists by a majority board of election--white majority board of 
elections in 2015.
    We spent considerable time and resources attending Hancock 
County Board of Election meetings, organizing voters, and 
community members to oppose these purges and successfully 
litigating a challenge to the purge in federal court.
    We were also forced to file litigation challenging the 
codification of Georgia's exact match voter registration 
process in 2017. That was referred to earlier by Chairman 
Nadler regarding the 53,000 who were put on a pending list.
    That litigation is ongoing and continues to drain our time 
and resources. Since the Shelby decision, members of the 
Georgia legislature have also repeatedly sought to enact 
legislation cutting back early voting periods, eliminating 
Sunday early voting and cutting back poll hours in Atlanta.
    Sunday voting has proven critical for turning out voters of 
color in Georgia because of our Souls to the Polls initiative 
and other activities at churches and other events on Sundays.
    Although we have successfully advocated many of these--
against many of these changes, this is just another example of 
how the lack of preclearance has emboldened our legislators to 
suppress the minority vote through legislation.
    If these examples of post-Shelby voter suppressions are not 
bad enough, the Peoples' Agenda and our partners are extremely 
concerned about how the rights of minority voters will be 
protected in the upcoming post-2020 redistricting process in 
the absence of the full protection of the Voting Rights Act.
    Therefore, we strongly urge Congress to take action to 
ensure the rights of minority voters are protected in the 
redistricting process and put a halt to the continued efforts 
to suppress the vote in states and local jurisdictions in the 
aftermath of the Shelby decision.
    Thank you.
    [The statement of Ms. Butler follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Ms. Butler. Thank you very much.
    Our next witness is Mr. James Tucker. He is an attorney 
with the law firm of Wilson Elser in Las Vegas, Nevada. He is 
one of the founding members of the Native American Voting 
Rights Coalition and serves as a pro bono voting rights counsel 
to the Native American Rights Fund, or NARF.
    He was co-counsel with NARF--I guess it is NARF--in Toyukak 
v. Tribal--close enough?
    Mr. Tucker. Good work.
    Mr. Cohen. First language assistance case under the VRA, 
fully tried decision since 1980. Co-counsel with NARF and ACLU 
on several other language and voter assistance cases and in 
cases challenging the Constitution of Section 5.
    Mr. Tucker holds a doctor of science of laws and Master of 
laws from the University of Pennsylvania, JD from the 
University of Florida, and a Master of public administration 
degree from the University of Oklahoma, and a Bachelor of Arts 
degree in history from the Barrett Honors College at Arizona 
State University.
    Mr. Tucker, thank you, and you are recognized for five 
minutes.

                   STATEMENT OF JAMES TUCKER

    Mr. Tucker. Thank you, Mr. Chairman.
    Chairman Nadler, Chairman Cohen, and Representative Jackson 
Lee, on behalf of the Native American Rights Fund, thank you 
for examining discriminatory barriers to voting.
    First generation barriers are those that limit access to 
registration, casting a ballot, or having that ballot counted. 
In 2013, Shelby County suggested that those barriers are 
largely a thing of the past.
    That conclusion simply does not reflect reality in Indian 
Country. Last year we completed a series of nine field hearings 
in seven states to evaluate Native American registration and 
voting.
    One hundred twenty-five witnesses testified at those 
hearings. Their testimony showed that first generation barriers 
to voting are not only alive and well, but they are in fact the 
dominant theme of Indian Country.
    The starting point for examining discriminatory barriers in 
voting in Indian Country is to look at the general barriers 
that Native voters face to political participation.
    Many are geographically isolated. They lack traditional 
mailing addresses, relying on geographic descriptions of their 
homes' locations, shared mailboxes, or relatives to receive 
their mail. They lack broadband access. Hundreds of thousands 
have limited English proficiency with some of the country's 
highest illiteracy rates.
    They are impoverished. They have low levels of educational 
attainment. These general barriers often are the products of 
discrimination themselves. For example, isolation is the result 
of forced removal and relocation.
    In a similar vein, limited English proficiency and 
illiteracy are prevalent because Native Americans were denied 
public schooling that persisted in many places until as 
recently as the 1980s, over 30 years after Brown v. Board of 
Education.
    Discrimination begets discrimination. State and local 
election officials frequently adopt voting procedures which, 
when combined with these general barriers, prevent Native 
voting.
    In some cases, they do so ignorant of the outcome. But far 
too often they do so intentionally to exploit these well-known 
barriers and deprive Native Americans of their fundamental 
right to vote.
    That is confirmed by the unparalleled success Native 
American plaintiffs achieve in voting litigation, prevailing 
over 90 percent of the time.
    Several successful cases have challenged Native lack of 
access to in-person polling places in states including Nevada 
and South Dakota. This is what political scientists refer to as 
the tyranny of distance.
    Polling places are located off of tribal lands several 
hours away by vehicle, to which many Native voters lack access 
or for which they cannot afford to purchase gas. We received 
testimony that Native voters would have to drive as much as 
eight hours, weather conditions permitting, to get to their 
polling place.
    Often, these polling places are in sparsely populated non-
Native communities. For example, the polling place for the 2000 
tribal members of the Crow Creek Reservation in Buffalo County, 
South Dakota, was established in a non-Native town with just 
eight non-Native voters.
    Alaska also was covered by Section 5. We brought two 
successful cases in Alaska where election officials suppressed 
Native voting by making what they euphemistically called a, 
quote, ``policy decision'' to deny language assistance to 
Alaska Native voters.
    In attempting to defend their indefensible actions, 
officials claimed that they could provide less voting 
information to Alaska Natives than voters received in English.
    The state even argued that the Fifteenth Amendment to the 
United States Constitution did not apply to Native voters. This 
was in 2014, more than 144 years after the amendment was 
ratified.
    Jurisdictions have shifted to all vote by mail systems or 
permanent absentee voting, knowing that Native voters lack 
access to mail.
    They likewise mandate physical addresses for voter 
identification, rejecting the use of tribal IDs and aware that 
addresses aren't available on tribal lands.
    The vast majority of the barriers Native voters face today 
are first generation. Clearly, much work remains to be done. 
The progress has fallen far short of the parity suggested by 
Shelby County.
    All of us suffer and our elected government has less 
legitimacy each time an American Indian or Alaska Native is 
prevented from registering to vote or being turned away at the 
polls.
    We look forward to working with the subcommittee to 
overcome the barriers to voting rights in Indian Country.
    Thank you very much for your attention. I will welcome the 
opportunity to answer any questions you may have.
    [The statement of Mr. Tucker follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cohen. Thank you, Dr. Tucker.
    First, let me ask you a question about--the last election 
there was a situation in one of the Dakotas where they said you 
had to have an address and the Native American folks generally 
didn't have an address.
    Mr. Nadler. A street address.
    Mr. Cohen. Street--yes, home street address. Did you all 
litigate that or what happened with that case?
    Mr. Tucker. It was litigated. In fact, just recently there 
was a circuit court of appeals decision that reversed the 
district court order that granted relief for it.
    What they did during the election was actually amazing. So 
North Dakota is one of I think only six states in the United 
States that have same-day voter registration, and so they--
tribes were actually able to issue addresses referring to like, 
you know, the location of the tribal council building.
    But they issued them letters that they presented then so 
that they could vote. But it required an extraordinary amount 
of effort, extraordinary efforts by community organizers, by 
the litigators.
    You know, the litigators included those from the Native 
American Rights Fund and it is something that just to replicate 
that in every single election places a tremendous--you know, 
tremendous burden on some of the people who are least able to 
afford to do that.
    And it is amazing that they were able to achieve the 
successes they were in terms of getting people registered at 
least for the purpose of that one election.
    But like so much of these sorts of gains, they are fleeting 
and they can go away at the whim of an election official who 
just simply chooses not to follow the law.
    Mr. Cohen. Thank you, Doctor.
    Mr. Greenbaum, you heard what Professor Blumstein said 
about gerrymandering and the thought that state courts, as they 
did in North Carolina, just yesterday or the day before ruled 
the congressional redistricting unconstitutional.
    Do you concur in his opinion that state supreme courts 
shouldn't have jurisdiction over legislative decisions or 
gerrymandering that might violate constitutional provisions?
    Mr. Greenbaum. I think that is totally wrong, especially--
so I disagree with my colleague over here--particularly when, 
using Pennsylvania as an example when they are looking at state 
fundamental rights to vote provisions and other--and true, 
North Carolina as well--state constitutional provisions.
    State constitutional provisions can protect voters just 
like federal constitutional provisions can, and this is a 
particular case in which the Supreme Court had ducked the issue 
for decades and ultimately decided to not address the issue.
    I mean, we, the Lawyers' Committee, as an organization 
think it is problematic because oftentimes the issues of race 
and partisanship are intertwined with one another and one of 
the things that we are fearful of in the next redistricting is 
that states will say, oh, we are discriminating based on 
partisan reasons when race a lot of times is the means of 
achieving a partisan end.
    We had a case in Georgia where that was the case, where the 
demographics of the districts were changing so they did a mid-
decade redistricting specifically focused on districts that 
were becoming more African American, which put the Republican 
incumbents at risk.
    And the defense of the state in that case was, oh, we 
weren't doing it for racial reasons; we were doing it for 
partisan reasons. But it was the racial demographics that were 
driving the change in the district.
    Mr. Cohen. Let me ask you this. Probably the most famous 
case to come out of this area was Baker v. Carr.
    Mr. Greenbaum. Sure.
    Mr. Cohen. That was basically a redistricting case because 
it said you couldn't--you had to do one man-one vote. Under the 
holdings of this Supreme Court that they recently held on 
gerrymandering, would Baker v. Carr have been allowed? 
[Laughter.]
    Mr. Greenbaum. Well, let us be--let us maybe be glad that 
the Supreme Court weren't the ones that decided Baker v. Carr 
and Reynolds v. Simms and a whole bunch of other cases 
including my colleague's case over here which, I have to say, 
is one that--when I was teaching voting rights classes to law 
students was one that we often used and one that the Lawyers' 
Committee uses in terms of the fundamental right to vote 
precedent.
    Yes, I think it was a mistake for the Supreme Court to find 
that partisan gerrymandering is not justiciable because it 
clearly affects the rights of voters.
    Mr. Cohen. And I don't have much time left but I would like 
to ask you to reiterate what you think we should do in our 
statute to come up with a basis for determining preclearance 
states that would meet the Supreme Court muster under the 
Holder decision.
    Mr. Greenbaum. Sure. And one of the things I want to say is 
that the Court in Shelby County, the standard that they put 
down was a rational basis standard, which should be the most 
lenient standard given to legislation, so that Congress should 
have a lot of latitude here.
    I think the formula that Congress, that is in H.R. 4 
actually responds effectively to the issues raised by the 
Supreme Court.
    What the Supreme Court was essentially saying, and I 
disagree with the opinion; I litigated on the team that was in 
the defense of Section 5. The Lawyers' Committee was involved 
in the defense. So I disagree with the opinion.
    But what I read the opinion to say is whatever you use as a 
formula has to match the current conditions and that by using 
this old formula, regardless of whether the facts showed that 
these jurisdictions should be covered, the formula itself has 
to be reflective of what the conditions are, and I think that 
H.R. 4 does an effective job of doing that because it is a 
formula that will cover, that has the potential of covering 
different jurisdictions during different periods of time based 
on relatively contemporaneous records of discrimination.
    And the formula actually sets a pretty high burden for who 
gets covered under it. You won't get there if there is one bad 
case. It is only going to be those jurisdictions that engage in 
persistent discrimination that are going to get there.
    Mr. Cohen. Thank you, sir.
    I now recognize the chairman of the full committee, Mr. 
Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Let me just come back to the redistricting for a moment. 
Baker v. Carr itself overturned, as I recall, a 1946 decision, 
which I forget what it was but that '46 decision essentially 
said it was a political question, essentially said what the 
Supreme Court just said about federal redistricting.
    Now, it said that population was a political--was not 
justiciable. It was a political decision, et cetera. The 
criticism, of course, is that there was no way of the 
electorate changing that. Baker v. Carr and Wesberry v. Sanders 
and others overturned that and the Supreme Court now has gone 
back to the 1946 rationale with respect to districting and 
saying it is up to the--it is up to the voters, et cetera.
    But the voters are totally barred from having any impact, 
as they were under the--under the one person-one vote problem.
    Now, as I understand the Constitution, the states have the 
primary responsibility for voting and for elections. With the 
federal government, with Congress having the final ability of 
its own elections and federal elections or elections that 
affect federal elections, and the Supreme Court in Shelby says 
you have to have a good reason for the federal government to 
come in and dictate to the states, which seems exactly the 
opposite of what was being said a few minutes ago, against the 
state supreme courts enforcing proper districting through their 
own constitutions.
    I think the states have an absolute right to do that, not 
just for their own--for legislatures but for Congress, too. 
They are the judges of Congress until Congress comes in and 
overturns them. So I don't--I think they have very good grounds 
there.
    Let me ask a different question, though. A witness on the 
previous panel mentioned the burden of Section 2 litigation--
that, you know, when the Justice Department was doing it, they 
had unlimited resources but when a private litigant did it, it 
could be millions of dollars, et cetera, et cetera, and it is 
very difficult. Section 2 enforcement is very difficult for 
that--for that reason, among others.
    So my question is what would you think of a federal statute 
that said that if someone sued a state for engaging in voter 
suppression and won the lawsuit--and won, and there was an 
affirmative finding by a court that the state had engaged in 
discrimination, et cetera, that all expenses be paid to the 
litigant by the state or by the--or by the private--or by the 
county or whatever?
    In other words, the counties or state should know that if 
they enacted a discriminatory thing, if they closed polling 
places on an Indian reservation or in a black area or wherever, 
they might end up spending $10 million or $20 million if 
someone had actually sued and won.
    Mr. Greenbaum. Well, we do have--the good news with that 
is--so I would be in favor of that and the good news for that 
is you have already enacted some protections with respect to 
that.
    You know, the Texas case--the Texas ID case that we 
mentioned--the Civil Rights Division Act DOJ litigated that 
case as well as a number of civil rights organizations, 
including mine. We submitted our fee application. It was, 
roughly, $7 million--a little over $7 million that we 
submitted.
    Now, it doesn't actually reflect the total amount of time 
we put on the case because we are talking about a four-week 
trial. We are talking, like, 16 expert witnesses. We are 
talking about multiple appeals in that case.
    It makes a big different to voting rights advocates to have 
those fee provisions available.
    Mr. Nadler. So you are saying there are some fee provisions 
but they are not adequate?
    Mr. Greenbaum. Well, yes. I mean, oftentimes we have a 
difficult time recovering the actual amount of time that we 
spent on the case at, you know, what is a fair rate.
    Mr. Nadler. And are the difficulties in collecting that 
susceptible of change by statute?
    Mr. Greenbaum. Yes. Yes.
    Mr. Nadler. So it would be a good idea to enact a statute 
that effectuated that?
    Mr. Greenbaum. Yes, Chairman Nadler.
    Mr. Nadler. Okay. Thank you.
    I am not sure who to ask this question of but we were 
talking about voter purges. Now, we know that voter purges have 
been used very discriminatorily and very deliberately.
    My question is, isn't there a legitimate reason or 
methodology for a state--what is a legitimate methodology for a 
state to keep its voting rolls up to date? People do die. They 
do move.
    What would be the right thing to do which wouldn't be 
discriminatory or lead to people who should be able to vote 
being taken off the rolls?
    Ms. Butler, maybe, or Dr. Tucker.
    Ms. Butler.
    Ms. Butler. Okay. Well, for me, not taking people off the 
rolls--I know it is legitimate to say if someone died that is a 
legitimate reason to be taken off the rolls.
    But for other reasons--I mean, if people are still alive 
and they are able to vote they should be allowed to vote and 
should not be purged from the rolls. They do list maintenance 
about moving and if people decide not to vote in several 
elections that is a choice.
    Mr. Nadler. Well, we understand that that is--but what 
would be legitimate for the state to do to take care of people 
who, A, die and, B, say, move to a different state?
    Ms. Butler. That would be a reason as well as if they moved 
to another state. Those would be two legitimate reasons. Any 
other reasons----
    Mr. Nadler. So there--so there should be some requirement 
that before anybody is purged there has to be a death notice or 
something from the Post Office for a change of address notice 
sent to the--sent to the--whoever is doing the elections?
    Mr. Greenbaum. And a lot of that is actually protected 
under the National Voter Registration Act that Congress passed 
in 1993, because it used to be that states could just purge 
pretty much people at will.
    Mr. Nadler. Are they--are the provisions of the motor-voter 
law--the National Voter Registration Act--sufficient in this 
respect? Any problems in enforcement or should we strengthen 
the National Voter Registration Act?
    Mr. Greenbaum. There probably needs to be some changes 
made, particularly because, you know, we had the bad Supreme 
Court decision recently, which is allowing Ohio to purge people 
based on what we think is--what we thought was an inaccurate 
interpretation of the NVRA. But the Supreme Court went the 
other way.
    Mr. Nadler. So we--so we should clarify that legislatively?
    Mr. Greenbaum. Yes.
    Mr. Nadler. And, finally, let me ask Mr. Greenbaum. Why is 
it not--why do we not see, not in this Justice Department but 
when we have a more sympathetic to voting rights Justice 
Department--why do we not see lawsuits against local 
governments for the violation of civil rights under color of 
law?
    In other words, we have statutes that empower the federal 
government to under certain circumstances seek criminal 
enforcement and under other circumstances civil enforcement 
against local officials--state officials, local officials--who 
deprive people of civil rights under color of law, and if 
someone--if there is a pattern of closing polling places in 
black areas or on Indian Reservations or doing a lot of other 
things we have seen, why is it not an effective thing to do or 
what are the pros and cons of that?
    I mean, how could we change--how could we or should we 
change the law with respect to enforcing civil rights violated 
by local governments or by local officials under color of law?
    Mr. Greenbaum. I want to give some thought to that. I mean, 
there actually are a fair amount of protections out there. But 
they are not aggressively being enforced enough by the federal 
government.
    Mr. Nadler. So they are not aggressively enforced. Now I 
understand. But when you have a sympathetic administration why 
aren't they?
    Mr. Greenbaum. I wish--you know, I wish I had a definitive 
answer to that. If I still worked--if I still worked in the 
Civil Rights Division I probably could give----
    Mr. Nadler. All right. Let----
    Mr. Greenbaum [continuing]. I probably would have an 
answer. But I couldn't tell you what it was. That is something 
that, frankly, frustrates me.
    Mr. Nadler. Let me ask a last question then following up on 
this. What, if anything, should we do statutorily to make that 
more--and maybe you will answer that after the hearing 
privately or whatever if you can't now. But what, if anything, 
should we do in terms of changing the law to make that kind of 
enforcement more used and more effective?
    Mr. Greenbaum. Chairman Nadler, I would appreciate the 
opportunity to--that is not a question I have thought of before 
and I would really appreciate the opportunity to think about 
that, and perhaps if you asked me a written question or give me 
the opportunity to supplement my testimony, I will do that.
    Mr. Nadler. Please do supplement your testimony. I would 
like to see an answer to that. Anybody else who wants to also 
who has thoughts on that--on that question, because it seems to 
me it is a possible tool.
    Mr. Tucker. Mr. Chairman, can I just----
    Mr. Nadler. Sure.
    Mr. Tucker [continuing]. give you an example? One of the 
things that we have been pushing for is mandatory tribal 
consultations between the Justice Department and tribes----
    Mr. Nadler. Mandatory what?
    Mr. Tucker. Mandatory tribal consultations between DOJ and 
the tribes, and I will give you an example of how that can come 
into play.
    DOJ filed a lawsuit or there was actually pre-litigation 
but they first opened an investigation in Coconino County, 
Arizona, because they found a report had been published by an 
outside organization finding that there were some accessibility 
issues under the Americans with Disabilities Act.
    Rather than consulting with the tribe or consulting with 
the organization that issued the report, DOJ went in--and this 
was just about a year ago under the current administration--and 
they found that 31 out of 32 polling places on Navajo lands in 
Coconino County were not ADA accessible. Not surprising to 
anyone who is familiar with chapter houses.
    They don't have paved parking lots. They don't have 
handicapped parking. They don't have ramps. They don't have 
money. And rather than consulting, which would have alleviated 
the problem, they simply----
    Mr. Nadler. Rather than what?
    Mr. Tucker. Rather than consulting they just--they went in 
and they--you know, they opened the investigation. They, you 
know, came up with an agreement, and it is something that would 
have been simply resolved by curbside voting.
    They could have reached an agreement where there could have 
been mandatory curbside voting. They could have brought the 
ballot out to the voters. It would have been fully accessible.
    Instead, what they have done is they placed those polling 
places in jeopardy being closed in the future and they have 
also opened up a can of worms outside of that in other parts of 
Indian Country where we are having election officials actually 
using that as a pretext to deny in-person voting opportunities 
on tribal lands because they say, the ADA requires us to deny 
this application.
    Mr. Nadler. Thank you.
    Mr. Cohen. Thank you, sir. Thank you, Mr. Chair.
    We now yield five minutes to Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Chairman, thank you so very much.
    Mr. Tucker, you have just literally given me more fodder 
for where we are today. I will come to you in a moment. But 
please think to have this answer.
    I want you to give basically the general numbers of the 
Indian Nation today. Give me some ballpark figures including 
covering any number of the nations--the tribes. If you will 
just give me a ballpark number.
    I want to go to Mr. Greenbaum, and let me thank you for 
your years of service and let me try to indicate my view of 
H.R. 4 a global statement that lawyers can use. They can use 
the findings. They can use the statutory provisions, precisely 
indicating both problem but fact and as well the formula.
    And so let me pose this question. I noticed that you were 
in the Justice Department from 1997 to 2003, and if you can be 
pithy in your answers, would you say that the civil rights 
division--voting rights division--was vigorous during that 
time?
    Mr. Greenbaum. Yes, particularly during the first half of 
that time. I would say more vigorous during the Clinton 
administration than during the first Bush administration, 
although I would say that the first Bush administration--second 
Bush administration did not interfere with ongoing cases that I 
brought but made it more difficult to bring cases.
    Ms. Jackson Lee. But at least the door was open?
    Mr. Greenbaum. Yes.
    Ms. Jackson Lee. I am sad to hear that but at least the 
door was open.
    Mr. Greenbaum. Yes.
    Ms. Jackson Lee. Take the example that we are presently in, 
which is why I think the voting rights--H.R. 4, H.R. 1--are so 
crucial, because if it can stand it means that it can operate 
in spite of changing administrations.
    So the record for Texas is poor.
    Mr. Greenbaum. Yes.
    Ms. Jackson Lee. We started out with the Texas ID law and 
the Obama administration DOJ stood tall with us. We were 
victorious in the district court, and went on.
    In the present atmosphere and administration, the DOJ 
completely flipped and went to the opposition of getting rid of 
the Texas ID law or supporting the Texas ID law.
    Mr. Greenbaum. The replacement Texas ID law--because Texas 
brought in a--as a result of the first set of court decisions, 
Texas changed its ID law and that happened close to the time 
that there was a change in administration and DOJ flipped 
positions with the change in administration. In fact, there was 
a brief that DOJ was supposed to file.
    Ms. Jackson Lee. But it was not a perfect change?
    Mr. Greenbaum. It was not a perfect change.
    Ms. Jackson Lee. It was not where we wanted to be.
    Mr. Greenbaum. Right. It was not----
    Ms. Jackson Lee. So there was no----
    Mr. Greenbaum. We challenged it--we challenged that 
subsequent change. We won in the district court.
    Ms. Jackson Lee. So the----
    Mr. Greenbaum. We lost in the 5th Circuit. You are correct 
that DOJ flipped positions.
    Ms. Jackson Lee. So let me get to my point.
    Mr. Greenbaum. Sure.
    Ms. Jackson Lee. And I appreciate it. The point is is that 
with the potential for these kinds of flips----
    Mr. Greenbaum. Yes.
    Ms. Jackson Lee [continuing]. It is crucial that we have a 
solid findings in law even though it can go up to the Supreme 
Court that we can operate under.
    Likewise, the Affordable Care Act. I am just trying to show 
the flipping--Affordable Care Act, supporting it was, by one 
administration DOJ vigorously. This administration--the Trump 
administration came and completely flipped--get rid of it, 
which jeopardizes innocent citizens.
    So my pointed question to you is the importance of findings 
that reflect some of what is in your presentation, particularly 
the point about Section 5, incentivized communities----
    Mr. Greenbaum. Yes.
    Ms. Jackson Lee [continuing]. Which Mr. Tucker reflects, to 
consult with minorities.
    Mr. Greenbaum. Yes.
    Ms. Jackson Lee. And we have examples where not consulting, 
if you will, leads to calamity.
    Mr. Greenbaum. I completely agree with that.
    Ms. Jackson Lee. The other point I wanted to make is you 
highlighted the horror that has been created by the Shelby 
decision.
    Mr. Greenbaum. Yes.
    Ms. Jackson Lee. Can you just say that in one or two 
sentences that we have seen a downward spiral of voter 
empowerment since Shelby?
    Mr. Greenbaum. I think you have said that better than I 
could. I do want to agree with what you said. I don't think I 
need to add to what you said.
    I would be remiss if I didn't mention the first voting case 
I brought at the Lawyers' Committee was Waller County, which 
you are very familiar with.
    Ms. Jackson Lee. Yes.
    Mr. Greenbaum. And that was a situation where a white 
district attorney----
    Ms. Jackson Lee. Yes.
    Mr. Greenbaum [continuing]. Told black students at the----
    Ms. Jackson Lee. At Prairie View.
    Mr. Greenbaum [continuing]. At Prairie View that they would 
be subject to felony prosecution if they voted. We sued him. We 
got that to stop.
    But then what they did was they were going to decrease the 
number of hours of early voting at Prairie View--the polling 
place closest to campus--and we were able to block that under 
Section 5. And it is a great example of how Section 5 blocks 
repeated efforts at discrimination.
    Ms. Jackson Lee. And I thank you very much.
    The chairman has been very kind to indulge and if you, Ms. 
Butler, and Mr. Tucker, I don't want to leave out the Indian 
Nation. So I will go with you, Ms. Butler. You can just answer.
    I want Ms. Butler to answer how devastating it is going to 
be by having redistricting without Section 5 operable, the 
first in decades in 2021.
    But I want to really highlight the Indian Nation in terms 
of the language concerns and the threatening atmosphere that 
pulls opportunity in voting under the Fourteenth and Fifteenth 
Amendment by where we are today.
    And most people don't think of the Pueblos and the 
reservations and the denial of rights. I just got through doing 
the Violence Against Women Act. We had to put more rights for 
Indian women.
    But can you indicate how oppressive and that this H.R. 4 
needs to have a heavy handprint on empowering the Indian Nation 
to vote?
    Mr. Tucker. So it is very, very important that Indian 
tribes, just like the other language minority groups and racial 
groups, be considered. You asked how many. There are 6.8 
million American Indians and Alaska Natives nationally. They 
comprise about 20 percent of Alaska's population.
    I am going to use an example to highlight the point. So the 
Navajo Nation has approximately 400,000 people who live 
primarily in three states--Arizona, New Mexico, and Utah.
    In San Juan County, Utah--getting back to this whole issue 
of one person-one vote, in 1984 San Juan County--their at-large 
method of electing their three-member county commission was 
struck down because it specifically was designed and was having 
the effect of disenfranchising Native voters.
    The county did not redistrict at all after that decision. 
So what they did was they basically used a one person-one vote 
violation to ensure the primacy of non-Natives who comprised a 
minority of the population--only about 45 percent of the 
county's population but they had a majority of the share 
because they used a redistricting plan that was based on the 
1980s.
    That was a fairly recent decision. It actually was just 
upheld in the Court of Appeals. But in addition, there were two 
other companion cases that were brought.
    They also denied access to the school boards, and this is a 
Lawyers' Committee case--they used vote by mail. They shifted 
to vote by mail and eliminated three polling places on Navajo 
lands specifically to deny Navajos the right to vote because 
they were afraid that, again, because Navajos were in the 
majority they would actually elect a majority.
    This just proves the point that I understand--you know, 
Professor Blumstein has talked about the need for respect of 
state sovereignty. These are not innocent actors. You know, 
things like H.R. 4 are specifically designed to get to the 
serial offenders and they do it in two ways.
    They do it at the state level and, more particularly, what 
we are more likely to see in Indian Country is going to be a 
jurisdiction by jurisdiction level at the county level.
    San Juan County is exactly the sort of place that needs to 
be covered by Section 5. My understanding is it would be under 
H.R. 4 because they certainly have more than three violations 
in the last 10 years.
    And, again, I appreciate the fact that you have highlighted 
the importance of the American Indian and Alaska Native 
community and the barriers they face and the legislation that 
would fix that.
    Ms. Jackson Lee. Thank you.
    Ms. Butler, on your redistricting point? Thank you for your 
service.
    Ms. Butler. Thank you.
    Redistricting definitely would be very critical to 
communities of color. Georgia, as you know, based on Census 
data, is going to be a majority minority state and so it is 
going to be critical that we have oversight in how the lines 
are drawn. We have seen the gerrymandering, the packing of 
minority voters so that we dilute their voting strength.
    So it is critical that we have that oversight protection to 
be able to get people that were represented--that we want to 
represent us, especially for communities of color.
    Ms. Jackson Lee. Thank you.
    Thank you, Mr. Chair.
    Mr. Cohen. Thank you very much. Thank you.
    I want to--I recognized Ms. Hubbard here, who is with the 
Deltas. Is anybody here from AKA?
    Ms. Jackson Lee. Please. [Laughter.]
    Mr. Cohen. So there is an AKA here. Great. Thank you.
    You also do a lot to help people get registered to vote. 
You have got a long history with that and I thank you. And 
women the right to vote and all that.
    Bradley Watkins--did he make it? I didn't see him. The 
Peace and Justice Center has been working on some issues. I 
think he might have filed a lawsuit today, which is important.
    I want to recognize former Senator Marrero who is here and 
thank her for her attendance and her service over the years and 
I want to thank all the witnesses that have come and testified.
    And we are going to have a press conference right 
afterwards. It is Room 335? Who knows which room we are in? 
335, is that right?
    Oh, this is it? Good. That makes it easier. That makes it 
easy.
    And let me just say this. It is interesting to think--in 
Australia you have to vote and if you don't vote they give you 
a penalty on your income tax. So they don't worry about the 
voter registration rolls. They keep everybody on it and you are 
supposed to vote.
    So it doesn't seem like in a country like ours where we 
have a bedrock of democracy and the idea of people having a 
chance to participate that we should take almost anybody off 
the rolls because everybody should be able to vote and if you 
show up.
    We are going to have a mayor's election and a city council 
election here in a month, and it is expected that less than 20 
percent will vote.
    So it is--we are here trying to see to it the people have a 
right to vote. People don't vote when they got a right to vote. 
Peg Watkins is here from League of Women Voters. We appreciate 
your being here and encouraging people to vote and registering 
people.
    But they don't come to vote. So if somebody shows up we 
ought to give them something. Thank them, and not try to stop 
them.
    Ms. Jackson Lee, for a last comment.
    Ms. Jackson Lee. Mr. Chairman, I just wanted to thank you. 
We are in your hometown, your district, and I think everyone 
should know how more than faithful you are to these values in 
Washington.
    You always wonder what your member is doing away from you. 
He is consistently a champion for constitutional and civil 
rights and the empowerment of all people.
    I want to likewise thank the purity of voting. The League 
of Women Voters--likely, you would have them here because that 
is what they represent and I want to thank your staff. We saw 
her again--your district staff that is doing such an excellent 
job.
    And if I might, say that if I had not already graduated 
from law school--this is such a stunning building--I might try 
to reenroll.
    And might I say that I am grateful that the GSA has a 
better mind to give this post office to a law school of 
empowerment versus hotels. And so I am delighted that this is a 
place of justice.
    It is just simply beautiful and I thank you for having us 
here. And I hope my thank yous are pertinent to the closing of 
this hearing, and thank you to all the witnesses.
    Mr. Chairman, I yield back to you with a great deal of 
thanks.
    Mr. Cohen. You are welcome. You are welcome.
    Ms. Jackson Lee. Thank you, Chairman Nadler.
    Mr. Cohen. Thank you.
    Mr. Nadler, do you want to make some remarks?
    Mr. Nadler. Yes, I will be brief.
    I simply wanted to, first, thank the witnesses both from 
the first and second panels, thank everyone from the local 
organizations and from the civil rights community and from the 
general community who came out to this hearing, which is 
hopefully part of the foundation for enactment of a new 
replacement for Section 4, among other things, of the Voting 
Rights Act to reestablish some of the protections that we had 
and maybe to go further in some other respects.
    And I want to thank the chairman for holding this hearing 
and for all the other work he is doing on the--on civil rights 
and civil liberties.
    And I think it also--I think it is very nice that a former 
not only post office but courthouse became a law school and 
stayed with the law.
    So I want to thank everybody and I want to particularly 
thank the chairman, and I yield back.
    Mr. Cohen. I thank each of you and I appreciate it, and I 
will say here in my hometown this is a great opportunity to 
have this hearing here. I am so honored to be the chair of the 
Constitution, Civil Rights, and Civil Liberties Committee. It 
is the highest honor I could ever--and position I could ever 
hope to have.
    For locals, they will know--my colleagues may not--but I 
stand on the shoulders of Russell Sugarmon, Vasco and Maxine 
Smith, and Irvin Salky and Julian Bond from Atlanta, and that 
is where they would want me to be and that is who I think about 
and serve.
    So with that, we are going to conclude this hearing and 
thank you all, the witnesses, for appearing.
    Without objection, all members will have five legislative 
days to submit additional written questions for the witness or 
additional materials for the records.
    With that, the hearing is adjourned. Thank you.
    [Whereupon, at 12:51 p.m., the subcommittee was adjourned.]

      

                                APPENDIX

=======================================================================

     
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    James Tucker for the record:
    https://docs.house.gov/meetings/JU/JU10/20190905/109887/
HHRG-116-JU10-20190905-SD002.pdf
</pre></body></html>
